                                         10th Anniversary
                                         SOCIAL SECURITY ADMINISTRATION
                                         OFFICE OF THE INSPECTOR GENERAL


                                              ild in g O n Our
                                           Bu                  Pas
                                                                 t
www.SocialSecurity.gov/OIG
 SSA OIG Pub. No. 85-007                  Anticipating Our Future
  PUBLISHED MAY 2005
                             SEMIANNUAL REPORT TO CONGRESS  October 1, 2004 – March 31, 2005
10th Anniversary
SOCIAL SECURITY ADMINISTRATION
OFFICE OF THE INSPECTOR GENERAL


            Mission Statement                                      How to Report Fraud
  By conducting independent and objective
                                                  e SSA OIG Fraud Hotline offers a means for you to provide
  audits, evaluations, and investigations, we
                                                  information on suspected fraud, waste, and abuse. If you know of
  improve the SSA programs and operations
                                                  current or potentially illegal or improper activities involving SSA
  and protect them against fraud, waste,
                                                  programs or personnel, we encourage you to contact the SSA OIG
  and abuse. We provide timely, useful,
                                                  Fraud Hotline.
  and reliable information and advice to
  Administration officials, Congress, and the
  public.                                         Call                   1-800-269-0271

                                                  Write                  Social Security Administration
             Vision and Values                                           Office of the Inspector General
  We are agents of positive change striving for                          Attention: SSA Fraud Hotline
  continuous improvement in SSA’s programs,                              P. O. Box 17768
  operations, and management by proactively                              Baltimore, MD 21235
  seeking new ways to prevent and deter           Fax                    410-597-0118
  fraud, waste, and abuse. We are committed
  to integrity and to achieving excellence by     Internet             www.SocialSecurity.gov/oig
  supporting an environment that encourages
  employee development and retention, and
  fosters diversity and innovation, while               To obtain additional copies of this report, visit our website,
  providing a valuable public service.                      www.SocialSecurity.gov/oig or call 410-965-3218

                                                                           SSA Pub. No. 85-007
                                                                           Published May 2005
 October 1, 2004 — March 31, 2005                      SSA Office of the Inspector General




Message from the Inspector General

On March 31, 2005, the Social Security Administration (SSA) Office
of the Inspector General (OIG) marked its 10th anniversary. When
the Social Security Independence and Program Improvements Act of 1994
established SSA as an independent Federal agency, it also created
the SSA OIG and assigned to it the full range of authorities and
responsibilities set forth in the Inspector General Act of 1978.
Since that time, we have endeavored to put into place an organization
whose criminal investigations and audits excel in protecting the
integrity of the Social Security programs and in providing meaningful
information to SSA, Administration officials, the Congress and the
American people. Over the past 10 years, our efforts have expanded
beyond our core mandate of deterring fraud, waste, and abuse to include important
intergovernmental initiatives such as homeland security. roughout this time, we have
maintained our focus on the single most important fact of our mission–that the programs
we protect touch the lives of virtually every American.
is, our first Semiannual Report to the Congress for Fiscal Year (FY) 2005, presents
our accomplishments for the period from October 1, 2004 through March 31, 2005.
It provides an in-depth description of our OIG organization and how our organization
operates to fulfill our mission. It also summarizes significant accomplishments in our
audit, investigation, legal and management areas and includes a number of statistical
summaries relating to those areas.
With an ever complex world in which to operate, and technologies unheard of 10 years
ago, we find ourselves continually confronting new challenges to SSA program integrity
and to our ability to identify and respond to those challenges. We enter our second decade
with a renewed commitment to serving, with SSA, as stewards of the Social Security
programs and the people they support.
Sincerely,

S
Patrick P. O’Carroll, Jr.
Inspector General




                                                                                             1
    Semiannual Report to Congress   October 1, 2004 — March 31, 2005




2
October 1, 2004 — March 31, 2005                          SSA Office of the Inspector General




                                         Contents


  Message from the Inspector General ........................................ 1
  Executive Summary .................................................................. 5
  Introduction to Our Organization ............................................ 8
  OIG Audit Matters................................................................. 13
  OIG Investigative Matters ...................................................... 31
  OIG Legal Matters ................................................................. 44
  OIG Management Activities ................................................... 49
  Reporting Requirements......................................................... 52
  Appendices ............................................................................ 53
  Glossary of Acronyms ............................................................ 69




                                                                                                3
    Semiannual Report to Congress     October 1, 2004 — March 31, 2005




          10th Anniversary
              Social Security Administration
              Office of the Inspector General




4
 October 1, 2004 — March 31, 2005                         SSA Office of the Inspector General




Executive Summary
As we complete our 10th year of operation, we have built upon our past accomplishments
to make even greater strides in combating fraud, waste, and abuse in SSA’s programs and
operations and in providing significant support to our country’s homeland security, in
conjunction with other Federal agencies.
In this reporting period, our auditors issued 54 reports with recommendations identifying
over $190 million in questioned costs and over $92 million in Federal funds that could be put
to better use. Our investigators reported over $117 million in investigative accomplishments,
with over $28 million in SSA recoveries, restitution, fines, settlements, and judgments and
close to $89 million in projected savings from investigations resulting in the suspension or
termination of benefits. Included in the investigative accomplishments total is $288,285 in
penalties and assessments that our attorneys reported through our civil monetary penalty
(CMP) program.
e following summaries highlight our noteworthy achievements during this reporting
period.

Homeland Security Efforts
e Social Security number (SSN) is recognized as a widely-used identifier and a key to
social, legal, and financial assimilation into our nation.
e role the SSN plays in establishing false identities and
facilitating crimes which can be used to finance terrorism
mandates our ongoing involvement in homeland security
efforts. So, we work in close collaboration with SSA and
other public and private sector entities to strengthen the
fabric of homeland security by supporting a fortified
enumeration process and combating SSN misuse to the
greatest practical extent. We do this through our audit and
investigative activities, as well as through our work with
Congressional committees aimed at addressing and finding
means to resolve threats to SSN integrity.

Significant Audits
Our audit, evaluation and review work focuses attention
on problems in areas critical to SSA’s mission and, in doing
so, provides support for SSA actions and Congressional
initiatives. During this reporting period, our work covered
areas ranging from SSN protection to improper benefit
payments. We reviewed the operation of the Enumeration
at Entry process and identified a number of weaknesses for
which SSA is taking remedial action. We also performed


                                                                              Executive Summary •   5
           Semiannual Report to Congress                             October 1, 2004 — March 31, 2005




           several audits dealing with wage items in the Earnings Suspense File (ESF), dealing with
           both military and civilian employers. In addition, we provided oversight for the FY 2004
           SSA Financial Statement Audit and addressed a number of important SSA management
           issues, such as the physical security of SSA Hearing Offices (HO) and the proper disposal
           of sensitive documents.

           Significant Investigations
           Our investigators closed over 4,200 criminal and administrative investigations, resulting in
           almost 1,900 arrests and indictments and over 1,100 convictions, CMP assessments and
           apprehensions of illegal aliens.
           In addition, we built on the success of the Cooperative Disability Investigation (CDI)
           program. e program, a joint effort of OIG, SSA, State Disability Determination Services
           (DDS) and State and local law enforcement personnel, consists of 18 CDI units located
           in 17 States whose mission is to obtain evidence of material fact sufficient to identify and
           resolve issues of fraud and abuse related to initial and continuing disability claims. CDI
           units investigate individual disability claims and identify lawyers, doctors, translators, or
           other third parties who facilitate disability fraud. During this reporting period, the efforts
           of our CDI teams resulted in over $55 million in SSA program savings and more than
           $36 million in savings to non-SSA programs, such as Medicaid. In 2004, the National
           Association of Disability Examiners acknowledged the success of the CDI program, noting
           that it represents an effective use of resources to promote stewardship and ensure program
           integrity and recommending that the program be expanded to all 50 States. In light of such
           favorable feedback and program accomplishments, it is anticipated that this program will
           continue to expand as additional resources become available.
           In FY 2005, we also created the Fugitive Enforcement Division to provide an OIG focal
           point for implementation of those provisions of the Welfare Reform Act (Public Law [P.L.]
           104-193) and the Social Security Protection Act of 2004 (P.L. 108-203) which deny payments
           to Supplemental Security Income (SSI) recipients and Old-Age, Survivors and Disability
           Insurance (OASDI) beneficiaries who are fugitive felons or probation and parole violators.
           P.L. 108-203 also disqualifies fugitives from serving as representative payees. is division
           identifies such individuals via automated data matches between SSA’s beneficiary rolls and
           a number of Federal and State warrant databases. Our efforts contributed to the arrest of
           3,520 fugitives during this reporting period—and a total of over 26,000 arrests since the
           program’s inception in August 1996.




6 •   Executive Summary
 October 1, 2004 — March 31, 2005                       SSA Office of the Inspector General




CMP Program
We administer the CMP enforcement statutes under a delegation of authority from SSA’s
Commissioner, which allows OIG to impose CMPs against certain violators of the Social
Security Act (the Act). During this reporting period, we initiated 77 cases involving false
statements or representations made in connection with obtaining or retaining benefits or
payments under Titles II and XVI of the Act (Section 1129 cases). Our imposition of CMPs
for these cases totaled $288,285. In addition, we also processed 20 complaints and closed
11 cases dealing with forms of misleading advertising and communication prohibited by
Section 1140 of the Act because of improper use of SSA’s program words, symbols, or emblems.
We were able to resolve almost all of these cases through voluntary compliance.

e Path Ahead
As we enter our second decade of service to SSA’s programs and to the American people,
we look back over our efforts to develop robust audit and investigative capacities and we
look forward to the many diverse and complex challenges
awaiting the application of our creativity and skills. At this
juncture between our past and our future, we rededicate
ourselves to our mission of independently and objectively
conducting audits, evaluations, and investigations aimed at
protecting the integrity of SSA’s programs and operations
and contributing to their continuous improvement.




                                                                             Executive Summary •   7
    Semiannual Report to Congress                               October 1, 2004 — March 31, 2005




    Introduction to Our Organization
    SSA OIG is comprised of the Immediate Office of the Inspector General and four major
    components: the Office of Audit, the Office of Investigations, the Office of the Chief Counsel
    to the Inspector General, and the Office of Executive Operations.

    IMMEDIATE OFFICE OF THE INSPECTOR GENERAL (IO)
    IO provides the Inspector General with staff assistance on the full range of his responsibilities.
    IO staff provide liaison services with all agencies sharing an interest or a role with OIG and
    assure coordination with Congressional committees, SSA, the Social Security Advisory Board
    and the President’s Council on Integrity and Efficiency. e Office of Quality Assurance and
    Professional Responsibility (OQAPR), part of the IO, is responsible for two critical functions.
    First, it conducts exhaustive reviews of each of the OIG’s component offices to ensure
    compliance with Federal laws and regulations, Agency policies, and relevant professional
    standards. ese reviews prepare the components for external peer review, provide OIG
    executives with an objective measure of quality and progress, and provide measures for several
    components of OIG’s overall Strategic Plan. Second, OQAPR performs OIG’s Professional
    Responsibility function, conducting thorough and timely investigations when allegations
    of misconduct are lodged against an OIG employee. In addition to these key functions,
    OQAPR prepares OIG’s annual Management Control Plan and performs special projects at
    the request of the Inspector General.

    OFFICE OF AUDIT (OA)
    OA conducts and supervises financial and performance audits of SSA programs and operations
    and makes recommendations to ensure that program objectives are achieved effectively and
    efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s
    financial position, results of operations, and cash flow. Performance audits review the economy,
    efficiency, and effectiveness of SSA’s programs and operations. OA also conducts short-term
    management and program evaluations, and other projects on issues of concern to SSA,
    Congress, and the general public.

    OFFICE OF INVESTIGATIONS (OI)
    OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
    mismanagement in SSA programs and operations. is includes wrongdoing by applicants,
    beneficiaries, contractors, and third parties, as well as by SSA employees performing their
    official duties. is office serves as OIG liaison to the Department of Justice (DOJ) on all
    matters relating to the investigation of SSA programs and personnel. OI also conducts joint
    investigations with other Federal, State, and local law enforcement agencies.

    OFFICE OF THE CHIEF COUNSEL TO THE INSPECTOR GENERAL (OCCIG)
    OCCIG provides independent legal advice and counsel to the Inspector General on a wide
    range of issues, including statutes, regulations, legislation, and policy directives. OCCIG

8
 October 1, 2004 — March 31, 2005                          SSA Office of the Inspector General




advises the Inspector General on investigative procedures and techniques, as well as on legal
implications and conclusions to be drawn from audit and investigative material. OCCIG also
administers the CMP program. In addition, this office manages OIG’s external and public
affairs program, preparing OIG publications and handling Congressional, media and public
requests for information.

OFFICE OF EXECUTIVE OPERATIONS (OEO)
OEO provides administrative and management support to the Inspector General and all
OIG components. OEO formulates and executes the OIG budget and confers with the
Office of the Commissioner, the Office of Management and Budget (OMB) and Congress on
budget matters. OEO is responsible for strategic planning and performance reporting, facility
management and property management. OEO develops and maintains OIG’s administrative
and management policy and procedures and performs all human resource support activities
for OIG. is includes the planning, design, development, testing, implementation and
maintenance of hardware, software and telecommunications networks to support OIG’s
mission.

How Our Organization Functions
OIG utilizes a number of specific strategies and associations to carry out its mission to improve
SSA’s programs and operations and to protect them against fraud, waste, and abuse. Several
of these strategies are outlined below.

OIG STRATEGIC PLAN
e core of the OIG mission is supported by the goals outlined in our FY 2003 – 2005
Strategic Plan, which provides a framework for how we conduct our business. e Plan
focuses on five general goals and a series of related self-measuring goals and implementation
strategies.
  • Our first goal relates to the impact we have on Social Security’s programs and operations.
    rough our investigative, audit, and legal activities, we strive to continually improve
    integrity, efficiency and effectiveness throughout SSA.
  • Our second goal deals with quality. e products and services we deliver shall be highly
    reliable in terms of content and value.
  • Our third goal involves the timeliness of our products. We recognize the importance
    of timely delivery of our work products, so our Strategic Plan includes a number of
    strategies that involve the sharing of best practices and the use of technology and
    improved processes that will enable us to meet this goal.
  • Our fourth goal focuses on value and the need to sustain a positive return for the monies
    invested in this organization.
  • Our fifth goal includes actions to enhance the work experience for the people who are
    the foundation of our organization.

                                                                                                    9
     Semiannual Report to Congress                               October 1, 2004 — March 31, 2005




     e most important aspect of our Strategic Plan is the integrated manner in which the five
     goals are addressed. Since the Plan formally recognizes that each OIG component produces
     data, information, and analysis of value to its peers, the strategies supporting each goal are
     crosscutting and consider the role each component has in affecting an outcome. Understanding
     these relationships and taking the steps outlined in the Plan to ensure information sharing
     facilitate our operation as “One OIG.”
     At the conclusion of each FY, we prepare a Performance Report which serves as our “report
     card” for how well we achieved the goals and targets in our Strategic Plan. As we near the end
     of the term covered by the current Strategic Plan, we are developing the follow-on Strategic
     Plan that will chart our course for FY 2006 and beyond.

     HOMELAND SECURITY EFFORTS
     e SSN is no longer used simply to track workers’ earnings and pay social insurance benefits.
     It is recognized as a widely-used identifier and a key to social, legal, and financial assimilation
     into our nation. As a result, our ongoing involvement in homeland security efforts is required
     by the role the SSN plays in establishing false identities and facilitating financial crimes which
     can be used to finance terrorism. We continue to work in close collaboration with SSA,
     and with other public and private sector entities, to help strengthen the fabric of homeland
     security by supporting a fortified enumeration process and combating SSN misuse to the
     greatest practical extent.
     Our efforts in this area occur on many fronts. We work with Congressional committees to
     address threats to SSN integrity and advocate for measures we believe can significantly reduce
     those threats. In February 2005, the Inspector General met Representative Jim McCrery,
     newly appointed Chairman of the Social Security Subcommittee of the House Committee
     on Ways and Means, to discuss the important role that OIG plays in homeland security
     initiatives and SSN integrity issues.
     In cooperation with DOJ, and in conjunction with a host of Federal and State agencies,
     particularly those within the Department of Homeland Security (DHS), we engage in a variety
     of joint investigative operations, including operations conducted at critical infrastructure
     sites across the country. At the request of the U.S. Attorney General, we also participate in
     anti- terrorism task forces when mission-related issues arise.
     As a member of SSA’s Enumeration Response Team, we work closely with SSA representatives
     to recommend and develop initiatives to strengthen the integrity of the SSN and fortify SSA’s
     enumeration process.
     Within our Office of Audit, we continue to conduct audits and make recommendations for
     areas in which SSA can further strengthen the integrity of the SSN. Our audit work in this
     area primarily reviews SSA’s issuance of the SSN, the use of the SSN within the economy
     and the associated earnings reported to the Agency, and the protection of the SSN during
     (and even after) the life of the numberholder.



10
October 1, 2004 — March 31, 2005                        SSA Office of the Inspector General




Some recent audits have reviewed issues such as (1) coordination between SSA, the Department
of State, and DHS when non-citizens apply for Social Security cards, (2) trends among the
top 100 employers submitting the highest volume of employee name and/or SSN mismatches
to SSA, (3) the use of the SSN as a student identifier at universities, and (4) coordination
between SSA and the Department of Defense (DoD) on payroll reporting anomalies.
Given the magnitude of the SSN misuse issue and its potential ripple effect on homeland
security, we believe SSA must continue to employ and enhance effective front-end controls
in issuing SSNs. Likewise, additional techniques, such as data mining, biometrics, employee
verification, and improved systems processes (i.e., capturing more electronic data on Social
Security card applicants) are critical in the fight against SSN misuse. We have made several
recommendations and SSA has taken steps to improve procedures for ensuring SSN integrity
and strengthening its link in the homeland security chain.

THE PRESIDENT’S COUNCIL ON INTEGRITY AND EFFICIENCY (PCIE)
OIG is an active participant on the PCIE, which was established by Executive Order 12805
on May 11, 1992, to:
  • Address integrity, economy, and effectiveness issues that transcend individual Government
    agencies; and
  • Increase the professionalism and effectiveness of Inspector General personnel throughout
    the Federal Government.
e PCIE is comprised of Presidentially-appointed Inspectors General, with additional
representation from OMB, the Federal Bureau of Investigation, the Office of Government
Ethics, the Office of Special Counsel, and the Office of Personnel Management.
To accomplish their mission, PCIE members conduct interagency and inter-entity audit,
inspection, and investigative projects to promote economy and efficiency in Federal programs
and operations and to address more effectively government-wide issues of fraud, waste, and
abuse. Council members also develop policies, standards, and approaches to aid in the
establishment of a well-trained and highly skilled Inspector General workforce.
As part of our PCIE involvement, the SSA Inspector General is a member of both the
Investigative and Audit Committees, as well as a liaison to the Chief Financial Officer
Council.
On October 27, 2004, at the PCIE’s seventh annual Awards Ceremony, the Social Security
Protection Act Team received the Service to Congress “Glenn/Roth Exemplary Service Award.”
is award was named for Senators John Glenn and William Roth, who were instrumental
in the original passage and subsequent implementation of the Inspector General Act of 1978.
It recognizes the highest example of collaboration and effective relationships between the
Congress and the Inspector General community. Several OIG staff members were part of
the team recognized.



                                                                                                11
     Semiannual Report to Congress                               October 1, 2004 — March 31, 2005




     THE SOCIAL SECURITY NUMBER INTEGRITY PROTECTION TEAM (SSNIPT)
     OIG’s SSNIPT was created to address the escalating issue of SSN misuse. SSN misuse and
     related crimes have been an even greater focus of Congress, the Administration, and SSA in
     recent years.
     SSNIPT uses an integrated approach combining the talents of our auditors, investigators,
     computer specialists, analysts, and attorneys. In addition to supporting homeland security
     initiatives, this group focuses its efforts on: (1) identifying patterns and trends of SSN misuse;
     (2) locating systemic weaknesses that contribute to SSN misuse such as those occurring in the
     enumeration and earnings-related processes; (3) recommending corrective actions to ensure SSN
     integrity; and (4) pursuing criminal and civil enforcement provisions for individuals misusing
     SSNs. e team also collaborates with external private and public sector organizations to pursue
     mutually beneficial activities to prevent and detect fraudulent use of SSNs.
     During the reporting period, the Team provided assistance in responding to numerous
     Congressional and media inquiries. Additionally, the Team coordinated with SSA on the
     implementation of new legislative provisions designed to strengthen the SSN, including new
     requirements under the Social Security Protection Act of 2004 and the Intelligence Reform and
     Terrorism Prevention Act of 2004. e Team also continues to coordinate with SSA on SSN
     issues via the Enumeration Response Team, and participates in several workgroups related
     to terrorism, SSN misuse and identity theft with public and private entities. Finally, the
     Team provided assistance in developing legislative proposals, audit recommendations and
     investigative trend analyses for SSA, Congress, and the law enforcement community.

     THE OIG ORGANIZATIONAL HEALTH COMMITTEE (OHC)
     Within OIG, we believe that a workforce that finds their jobs fulfilling and rewarding enhances
     our ability to achieve our mission. To that end, the Inspector General established an OHC
     during this reporting period.
     e OHC’s purpose is to be an agent of positive change by discussing, evaluating, and
     presenting to senior management employee issues and proposed solutions that affect the
     operation, administration, and efficiency of OIG. In doing this, the Committee acts as a
     representative of all OIG employees. e OHC is comprised of five OIG employees: two
     representatives from management and three from the staff level. In addition to the five
     committee members, a senior staff representative coordinates communication between the
     OHC and the Inspector General and his executives.
     rough the OHC, OIG employees can present issues that directly or indirectly affect the
     organization’s production or efficiency in an effort to further the mission of OIG and, in
     turn, SSA. During this semiannual period, five OHC members were selected; a charter
     for the committee was created and shared with all OIG employees; an internal website
     was created to keep employees informed of the Committee’s work; procedures were established
     to confidentially solicit and address OIG employee concerns; and the OHC held its first
     quarterly meeting.


12
 October 1, 2004 — March 31, 2005                         SSA Office of the Inspector General




OIG Audit Matters
OA protects the integrity of SSA’s programs by conducting and supervising comprehensive
financial and performance audits of SSA’s programs and operations and making
recommendations to ensure that program objectives and operational functions are supported
in an efficient and effective manner.
  • Our financial audits, required by the Chief Financial Officers’ Act of 1990, assess whether
    SSA’s financial statements fairly present its financial position, results of operations and
    cash flow.
  • Our performance audits review the economy, efficiency, and effectiveness of SSA’s
    programs and operations.
  • Our short-term management and program evaluations focus on issues of concern to SSA,
    the Congress, and the general public. ese efforts aim to identify and recommend ways
    to prevent and minimize program and operational fraud, waste, and abuse (including
    inefficiency and ineffectiveness), rather than detecting problems after they occur.
Our Annual Audit Plan is a tool for communicating our audit priorities to SSA, the Congress,
OMB, and other interested parties. Many of the activities
described in the Audit Plan address the fundamental goals
related to SSA’s mission to administer Social Security
programs effectively and efficiently. In preparing the Plan,
we prioritize reviews to focus on the programs and activities
most vulnerable to fraud and abuse. To further develop Plan
items and conduct audits and evaluations, we coordinate
closely with OI and OCCIG to identify, refer, and support
each other’s work.
Each year, OIG issues a list of the top issues facing SSA
management. Our FY 2005 Plan describes 106 reviews
we intend to complete in FY 2005 in the following issue
areas:
  1. SSN Protection
  2. Management of the Disability Process
  3. Improper Payments
  4. Internal Control Environment and Performance Measures
  5. Critical Infrastructure Protection and Systems Security
  6. Service Delivery
In addition, our Audit Plan details 45 reviews we intend to begin and 16 performance
indicator reviews we will oversee in FY 2005. In preparing this Plan, we solicited suggestions


                                                                                                  13
     Semiannual Report to Congress                             October 1, 2004 — March 31, 2005




     from SSA to ensure our Plan appropriately addresses all areas vulnerable to fraud and abuse
     or would assist SSA in achieving its key service delivery goals. We received many important
     suggestions for inclusion in our Plan. We have incorporated many of those suggestions into
     this document as planned audits/evaluations, and those not included will be addressed as
     staffing and scheduling permit.
     Our Headquarters operation consists of four divisions. While much of our work touches on
     more than one of these areas, the following is a summary of each audit division’s particular
     scope of responsibility:

     GENERAL MANAGEMENT AUDIT DIVISION (GMAD)
     GMAD performs audits and evaluations of the full range of SSA program and administrative
     functions. It also conducts short-duration, time-sensitive projects that address requests
     from Congress, senior SSA management, other organizations, and the public. In addition,
     GMAD provides support for initiatives that encourage cooperative investigation-audit
     collaboration.

     DATA ANALYSIS AND TECHNOLOGY AUDIT DIVISION (DATAD)
     DATAD plans, conducts, oversees, and reports on the results of audits of SSA’s centralized
     automated systems. DATAD is also responsible for reviews of general and application controls
     in SSA’s automated data processing systems and for reviews of the operational efficiency and
     effectiveness of SSA’s data processing operations.

     FINANCIAL AUDIT DIVISION (FAD)
     FAD plans, conducts, oversees, and reports on the results of audits of SSA financial statements.
     e division is responsible for audits and reviews of SSA’s accounting and financial reporting,
     financial systems, asset management, information resource management, budget execution
     and internal controls. FAD audits finance contracts and State Disability Determination
     Services’ (DDS) administrative costs.

     POLICY, PLANNING, AND TECHNICAL SERVICES DIVISION (PPTSD)
     PPTSD provides a full range of technical assistance, operations, and staff support to OA
     by developing policies and procedures, standards, and instructions for all OIG audit and
     evaluation activities and by ensuring compliance with generally accepted Government auditing
     standards and professional requirements. e division also develops policies and procedures
     for OA’s internal quality assurance system and manages OA’s management information
     reporting.

     FIELD AUDIT DIVISIONS
     OA has nine field audit divisions, each of which is responsible for planning, conducting,
     overseeing and reporting on the results of audits, evaluations, inspections and other reviews



14
 October 1, 2004 — March 31, 2005                        SSA Office of the Inspector General




related to SSA’s OASDI and SSI programs and to SSA’s administration of those programs.
Audit Divisions are located in the following cities:
  • Boston, MA
  • New York, NY
  • Philadelphia, PA
  • Atlanta, GA
  • Birmingham, AL
  • Chicago, IL
  • Dallas, TX
  • Kansas City, MO
  • San Francisco, CA

Significant Audits
During the reporting period, we completed 54 audits, reviews, and evaluations covering all of
the major areas over which we have jurisdiction. e following summaries provide a sample
of some of the major audits and reviews we conducted during this reporting period.


SSN Protection
Assessment of the Enumeration at Entry Process
SSA entered into agreements with the Department of State (State) and the former Immigration
and Naturalization Service (INS) in 1996 and 2000, respectively, for those agencies to assist
SSA in assigning SSNs to certain classes of immigrants entering the United States. (e
responsibility for immigration-related services shifted to DHS on March 1, 2003.) When
an immigrant applies for an original SSN or a replacement SSN card on the State or DHS
immigration form, the immigrant does not have to also file an application with SSA. Instead,
State and DHS collect the needed information and DHS electronically transmits the data
to SSA which, in turn, uses this data to assign the immigrant an SSN or a replacement SSN
card. SSA refers to this process as “Enumeration at Entry” (EAE).
Our audit work identified weaknesses in existing controls and operations we believe SSA
needs to address to improve the efficiency and effectiveness of the EAE process. We estimated
that SSA assigned more than one SSN to about 1,161 immigrants who received an SSN
through EAE from December 2003 through February 2004 (about 11 percent of the total).
We identified instances in which records State and DHS transmitted to SSA did not include
immigrants’ complete names or previously assigned SSNs, which are important information
for SSA records. Using EAE records with complete identifying information decreases the

                                                                                                15
     Semiannual Report to Congress                             October 1, 2004 — March 31, 2005




     likelihood that SSA will assign multiple SSNs. In addition, we determined that SSA could not
     process about 26 percent of EAE applications during FY 2004 because of data compatibility
     issues among SSA, State, and DHS.
      We believe EAE has the potential to assist SSA in preventing fraud and improving customer
     service. However, because of the weaknesses identified in this audit, we recommended that
     SSA: (1) enhance its edits to provide greater protection against assigning multiple SSNs to
     the same person; (2) cross-reference multiple SSNs that SSA assigned to the immigrants
     we identified; (3) work with State and DHS to provide clear instructions to immigrants
     regarding SSNs; (4) provide its handout regarding SSN attainment to immigrants in their
     native languages; (5) work with State and DHS to resolve data compatibility issues; and
     (6) contact EAE applicants to resolve pending records.
     SSA agreed with all but one of our recommendations. SSA stated that it was not practical to
     contact applicants because it does not have complete and current address information. We
     believe most pending EAE applications have adequate address information that SSA could
     have used to mail the SSN card, and we encourage SSA to reconsider its response to this
     recommendation.

     Congressional Response Report: Follow-up of Federal Agencies’ Controls
     over the Access, Disclosure, and Use of SSNs by External Entities
     In 2003, working with 14 other OIGs, we reviewed Federal agencies’ controls over the access,
     disclosure and use of SSNs by external entities. Most OIGs reported that their respective
     agencies had inadequate controls. We found that of the 15 agencies reviewed, 14 lacked
     adequate controls over contractors’ access to, and use of, SSNs; 9 had inadequate controls
     over the access to SSNs maintained in their computer systems; 2 did not have adequate
     controls over non-Government and/or non-contractor entities’ access to, and use of, SSNs;
     and 1 did not make legal and informed SSN disclosures. We concluded that Federal agencies
     would benefit by strengthening some of their controls over the access, disclosure and use of
     SSNs by external entities.
     During this reporting period, we followed-up on the status of corrective actions Federal
     agencies have taken to address recommendations resulting from our 2003 review. We are
     encouraged to learn that all 15 Federal agencies have taken corrective actions to strengthen
     some of their SSN controls. Given the potential for individuals to improperly obtain and
     misuse SSNs, we encourage Federal agencies to continue their efforts to safeguard SSNs.

     Universities’ Use of SSNs as Student Identifiers
     A 2002 survey of the American Association of Collegiate Registrars and Admissions Officers
     found that, for those responding, one-half of member institutions used SSNs as the primary
     student identifier. Although no single Federal law regulates overall use and disclosure of SSNs
     by colleges and universities, the Privacy Act of 1974, the Family Educational Rights and Privacy
     Act, and the Social Security Act all have provisions that govern disclosure and use of SSNs.


16
 October 1, 2004 — March 31, 2005                         SSA Office of the Inspector General




We are conducting audits of universities’ use of SSNs in each of SSA’s 10 regions. During
this reporting period, we performed audits in Regions IV (Atlanta), VII (Kansas City),
VIII (Denver), and X (Seattle). Our objectives were to assess universities’ use of SSNs as
student identifiers and the potential risks associated with such use. We contacted a sample of
educational institutions in each Region, and for each selected school, interviewed university
personnel and reviewed school policies and practices for using SSNs. In addition, we identified
schools that no longer use SSNs as student identifiers and determined reasons for this change
and best practices that could be adopted by other schools.
While we recognize that under existing law SSA cannot prohibit colleges and universities
from using SSNs as student identifiers, we believe SSA can help reduce potential threats
to SSN integrity by encouraging schools to limit SSN collection and use. Accordingly, we
recommended that SSA:
  • Coordinate with schools and educational associations to inform the university community
    about the potential risks associated with using SSNs as student identifiers;
  • Encourage universities to limit their collection and use of SSNs; and
  • Promote the best practices of educational institutions that no longer use SSNs as student
    identifiers.
SSA agreed with our recommendations.


Benefit Payment and Representative Payee Issues
SSA’s Clean-Up of Title II Disability Insurance (DI) Cases with a Workers’
Compensation Offset
Our objective for this audit was to assess SSA’s accuracy in cleaning up a group of Title II
DI cases involving workers’ compensation (WC) offsets which occurred during the period
1966 to 1993. We also reviewed the accuracy of the SSA Office of Quality Assurance and
Performance Assessment’s (OQA) estimate of the dollar effect of errors that occurred and
continue to exist in this population of WC offset cases.
SSA formed a workgroup to improve the accuracy of the WC offset workload. e improvement
process included a clean-up of previously computed WC offset cases by redeveloping and
reverifying the offset calculations for beneficiaries who met specific criteria. SSA’s clean-up
tracked the number of WC cases it paid correctly, underpaid, and overpaid; however, it did
not track the monetary value of all errors detected.
In addition to the $256.5 million in payment errors OQA identified, we estimated SSA
missed or incorrectly calculated $87.5 million in payment errors in its initial WC clean-up
population, for a total of $344 million in payment errors. We stated that these errors may
continue to occur until the cause of the payment errors is corrected.



                                                                                                  17
     Semiannual Report to Congress                            October 1, 2004 — March 31, 2005




     During our review, we noted that the payment errors resulted from various mistakes in
     processing WC claims. Given the complexity of processing WC claims and the various
     mistakes affecting payment accuracy overlooked during the clean-up, we believe the process
     may still be significantly error prone.
     We recommended that SSA evaluate the effectiveness of the procedures implemented to
     improve the payment accuracy of the WC workload and implement new or additional
     procedures, as necessary.
     SSA agreed with our recommendation.

     SSA’s Controls Over the Title XVI Overpayment Waiver Process
     Our objectives for this audit were to evaluate SSA’s controls over the SSI overpayment waiver
     process to assess the appropriateness of overpayment waiver decisions of $500 or less and to
     determine whether overpayment waivers exceeding $500 were developed in accordance with
     the provisions defined in Title XVI of the Social Security Act.
     We reviewed a statistical sample of 250 waiver decisions below $20,000 and 13 waiver decisions
     above $20,000 from the Supplemental Security Record. e results of our review disclosed that
     no documentation was available to support waiver decisions for 133 of the 263 sample items
     (50.6 percent); SSA was unable to provide case folders for another 30 decisions (11 percent);
     SSA approval of 17 overpayment waivers (7 percent) did not conform to SSA policy; and,
     of 42 approved waiver decisions above $2,000 that required supervisory review, only 23 had
     supporting documentation and 7 of these did not have the required supervisory review.
     We concluded that SSA’s policies and procedures provided safeguards from fraud, waste and
     mismanagement for SSI overpayment waivers; however, there was no documentation for
     50.6 percent of the decisions to demonstrate that SSA complied with its policies. We also
     found waiver decisions had been made without the required development of the recipient’s
     fault and financial circumstances. Failure to document that waiver policies and procedures
     are followed or the inability to produce that documentation brings into question the integrity
     of this process.
     We recommended that SSA: (1) ensure that employees develop and maintain documentation
     for all waivers, to include the recipient’s request for waiver and discontinue the practice
     of shredding waiver documentation; (2) ensure that employees properly develop fault and
     financial circumstances and discontinue the practice of granting waivers when development
     is incomplete; and (3) ensure that waivers over $2,000 are reviewed by supervisors before a
     decision becomes final.
     SSA agreed with our recommendations.




18
 October 1, 2004 — March 31, 2005                           SSA Office of the Inspector General




Individual Representative Payees for SSA
We conducted a nationwide review of individual representative payees who serve 14 or fewer
beneficiaries. Our objective was to confirm that beneficiaries in the care of representative payees
existed, and, through personal observation and interviews, determine if the beneficiaries’ food,
clothing and shelter needs were being met. To accomplish our objective, we selected a random
sample of 275 representative payees nationwide. We summarized the work completed in each
of SSA’s respective regions in 10 separate reports. As of March 2005, we had issued reports
for 5 of the 10 regions (Boston, New York, Denver, Dallas and Seattle).
For the five regions for which reports were issued, we confirmed the existence of the
beneficiaries in the care of the representative payees in each region. rough personal
observation and interviews, we found, for most beneficiaries, that their food, clothing, and
shelter needs were being met.

Organizational Representative Payees for SSA
We conducted reviews of two organizational representative payees for SSA:

Family Services, Inc. (FSI) of Charleston, SC
During this audit our objectives were to determine whether FSI had effective safeguards over
the receipt and disbursement of Social Security benefits and to ensure that Social Security
benefits were used and accounted for in accordance with SSA’s policies and procedures.
Our audit found FSI neither (1) effectively safeguarded the receipt and disbursement of
SSA benefits, nor (2) ensured that Social Security benefits were accounted for in accordance
with SSA’s policies and procedures. FSI had significant weaknesses which prevented it from
meeting its responsibilities as a representative payee. Specifically we found that:
  • FSI had limited contact with beneficiaries;
  • FSI did not have adequate internal controls to effectively safeguard the receipt and
    disbursement of SSA benefits;
  • A separate bank account was not established to protect the beneficiaries’ interest or
    properly titled to show beneficiary ownership;
  • FSI was not the representative payee of record for five beneficiaries; and
  • Conserved funds for some deceased beneficiaries were not sent to the estates of the
    beneficiaries.
We recommended that SSA make a determination as to whether FSI should continue to serve
as a representative payee. If SSA’s decision is to continue to let FSI serve as a representative
payee, then SSA should ensure FSI takes the necessary steps to improve its accounting for
beneficiary funds. Both SSA and FSI agreed with our recommendations.



                                                                                                      19
     Semiannual Report to Congress                               October 1, 2004 — March 31, 2005




     Seattle Mental Health Institute (SMHI)
     Our objectives were to determine whether SMHI had effective safeguards over the receipt
     and disbursement of Social Security benefits and to ensure that Social Security benefits were
     used and accounted for in accordance with SSA policies and procedures.
     Our audit showed that SMHI did not have effective safeguards over the disbursement of Social
     Security benefits. Nor did it ensure that Social Security benefits were used and accounted for
     in accordance with SSA’s policies and procedures. erefore, we could not determine whether
     SMHI properly used these payments for the beneficiaries’ use and benefit.
     SMHI did not have an effective system of internal controls to safeguard an estimated
     $3 million in annual benefits received and disbursed. Specifically, SMHI did not:
       • Maintain supporting documentation for 84 percent of the beneficiary transactions we
         reviewed;
       • Provide evidence that an estimated $40,054 in beneficiary funds issued to SMHI
         employees was spent on behalf of the beneficiaries;
       • Consistently report to SSA in a timely fashion when beneficiaries were incarcerated,
         resulting in $12,668 in overpayments;
       • Report work activity to SSA for two SSI recipients;
       • Identify SSI recipients with excess resources, resulting in $7,153 in overpayments; and
       • Return $3,421 in conserved funds to SSA for beneficiaries no longer in its care.
     ese conditions existed because SMHI management did not place enough priority on its
     representative payee program and did not ensure that its employees were properly trained in
     SMHI’s responsibilities as a representative payee.
     Both SSA and SMHI agreed with our recommendations to rectify the situations noted.

     School Attendance by Student Beneficiaries Over Age 18
     Our objective was to determine the adequacy of SSA’s procedures for ensuring that student
     beneficiaries over age 18 were entitled to receive benefits in accordance with the Social Security
     Act (the Act).
     Title II of the Act provides benefits to children upon the worker’s retirement, death, or
     disability. Generally, child beneficiaries may receive benefits until they marry or reach age
     18. Amendments to the Act provide for extended benefits beyond age 18 to enable child
     beneficiaries who are full-time students at an elementary or secondary school to complete
     their education. SSA relies on student beneficiaries to voluntarily report events that may affect
     their continuing entitlement to benefits. For example, students who attend school part-time
     or have graduated or dropped out are no longer eligible for benefits.



20
 October 1, 2004 — March 31, 2005                          SSA Office of the Inspector General




Prior audit work disclosed that student beneficiaries received incorrect and unsupported
payments of $73.9 and $140.4 million, respectively. In March 2001, in response to our
previous audit, SSA redesigned its student monitoring system. Specifically, SSA revised its
forms and reporting requirements, obtained school certification before awarding student
benefits, shifted the workload from processing centers to field offices, and provided additional
training and guidance to its employees.
However, we found that additional actions are still necessary to strengthen program integrity
and deter fraud, waste, and abuse. Based on a random sample of 300 students, we found
that SSA incorrectly paid $202,917 in benefits to 61 students from October 2000 to
August 2003. In addition, SSA did not retain documentation to support $56,065 in benefits
to 13 students from October 2000 to July 2003. Projecting these results to our population
of 254,121 students, we estimate that SSA disbursed incorrect and unsupported payments
of $70 million and $39.5 million, respectively. is occurred, in part, because (1) students
and schools did not report events that affected their benefit status in an accurate and timely
manner and (2) schools were not fully aware of the notification procedures.
We recommended, and SSA agreed to: (1) ensure overpayments were established for the cases
identified during our audit; (2) evaluate the feasibility of establishing overpayments for the
remaining cases questioned by our audit; (3) revise Form SSA-1372, S’ S
R S A, to request that schools report changes in graduation dates
to SSA and to require school officials to acknowledge receipt of the N  C
 F-T S A when they certify the full-time attendance of student
beneficiaries; (4) develop a fact sheet to provide information about reporting responsibilities
for student beneficiaries and school officials; and (5) improve adherence to retention policies
for the supporting documentation for student beneficiaries.

Individuals Receiving Multiple Auxiliary or Survivor Benefits
e objective of this audit was to determine whether individuals who received multiple
auxiliary or survivor benefits were actually entitled to the benefits.
Eligible spouses and children of retired or disabled workers may be paid auxiliary benefits
under Title II of the Act. In addition, benefits may also be payable to certain survivors of
deceased workers. As a result, individuals may be entitled to auxiliary or survivors benefits
based on several workers’ earnings simultaneously (for example, based on the earnings of
both parents), but should generally only be paid the higher of the two amounts. When an
auxiliary or survivor beneficiary becomes entitled to another, higher benefit, SSA’s policy is to
stop issuing the lower benefit payment, thus preventing an overpayment from occurring.
From all auxiliary and survivor beneficiaries receiving payments in February 2004, we
identified 1,514 beneficiaries whose SSNs were recorded on multiple records and who,
therefore, appeared to be incorrectly receiving multiple auxiliary or survivor benefits. We
initiated a review to determine whether payments to these beneficiaries were appropriate.



                                                                                                    21
     Semiannual Report to Congress                               October 1, 2004 — March 31, 2005




     Generally, individuals who received multiple auxiliary or survivor benefits were not entitled
     to the benefits paid to them. Based on the results of our sample, we estimate that about
     863 beneficiaries were incorrectly paid approximately $3.5 million in benefits under multiple
     records. Although SSA identified about $1.5 million of these overpayments, we estimate
     about $2 million went undetected by SSA. Further, because of our audit, we estimate SSA
     avoided paying about $614,336 by stopping some incorrect payments sooner than it would
     have through its existing procedures.
     SSA agreed with most of our recommendations, and we are encouraged by its plans to
     enhance its computer systems to better identify and prevent multiple benefits to auxiliary
     or survivor beneficiaries.

     SSA’s Ticket to Work Program
     Our objective was to conduct a performance review of SSA and its contractor, Maximus, Inc.,
     to ensure contract objectives were being met and were in accordance with the Ticket to Work
     (TTW) and Work Incentives Improvement Act. For our review, we selected 10 tasks identified
     in the contract with Maximus:
         Task 1 - Contractor Orientation                    Task 16 - Monthly Progress Reports
         Task 2 - Start-Up Plan                             Task 17 - Annual Report
         Task 3 - Toll-Free Number                          Task 20 - Periodic Meetings with SSA
         Task 8 - Ticket Program Training                   Task 21 - Periodic Special Studies
         Task 9 - Management of the Ticket Process          Task 22 - Conference Planning
     We found that SSA and Maximus generally met the contract objectives within the 10 reviewed
     tasks, which were established to ensure the proper implementation and management of the
     TTW program. While the contract tasks were met, we identified opportunities to improve
     the management of the program. Maximus retained information on undeliverable tickets,
     including those that were returned due to the suspected death of the addressees, but SSA did
     not request this information from Maximus for further investigation. We could not confirm
     in all cases that Maximus received a signed letter from a beneficiary when one was required
     prior to initiating a change to the ticket holder’s status. Finally, we could not determine
     how many of the Employment Network (EN) and Vocational Rehabilitation (VR) agencies
     enrolled in the TTW program have been trained on the requirements of participation in
     the program.
     We recommended that SSA and Maximus work together to: (1) investigate all undeliverable
     tickets to determine if the reasons the tickets were undeliverable correlate to a change in ticket
     eligibility or payment status; (2) establish a policy on the retention of signed letters requesting
     a change to a ticket holder’s record; (3) ensure that Maximus has accurate information on
     the expiration of tickets; and (4) ensure ENs and State VR agencies have received adequate
     training to properly serve ticket holders and adhere to TTW policies and procedures.


22
 October 1, 2004 — March 31, 2005                           SSA Office of the Inspector General




SSA generally agreed with our recommendations except for our recommendation to develop a
policy regarding record retention. SSA’s disagreement was based on Maximus’ existing internal
policy governing the retention of Ticket reassignment requests and other Ticket-related original
documents and SSA’s reminder to Maximus to continue to maintain all hard copy files.


Wage Reporting
Department of Defense (DoD) Wage Items in the Earnings Suspense File (ESF)
We performed this audit to determine whether individuals having public responsibilities and
positions of trust at the DoD have wages posted in SSA’s ESF and what actions have been
taken to resolve these wage reporting problems.
We found that for Tax Years (TY) 1997 through 2002, DoD components submitted over
26 million W-2s to SSA totaling approximately $361 billion in wages. DoD components
consisted of the Army, Navy, Marine Corps, Air Force, and other DoD agencies. e U.S. Coast
Guard was also included since it is a special component of the Navy in wartime. In TY 2002,
these components submitted approximately 4.1 million W-2s totaling about $72 billion in
wages.
We found that for TYs 1997 – 2002, DoD components submitted about 6,400 wage items
representing approximately $30 million in wages that were placed in the ESF. SSA placed the
wages in the ESF because (1) the reported names and/or SSNs did not match SSA’s records;
(2) a special indicator was assigned when the individual appeared to be deceased in SSA’s
records, a child was under the age of 7, or the individual disclaimed the wages; or (3) the
reported SSNs were invalid. Some of these errors appear to relate to simple input errors,
such as transposition or typographical errors, name changes, and incorrect dates of birth and
death on SSA’s records. However, it is also possible that individuals employed at the DoD
components were not using their own SSNs and, as a result, DoD components may have
employed individuals whose true identity cannot be confirmed.
SSA has taken many steps to resolve wage reporting problems and reduce the size of the ESF.
However, the DoD components have not been informed of all instances where a DoD employee
disclaimed the wages that DoD had reported to SSA. Further, DoD does not regularly receive
notification of suspended wages from SSA. Finally, not all DoD components have taken
advantage of SSA’s verification service. For example, we could not find evidence that the Air
Force or Coast Guard were currently verifying their employees’ names and SSNs.
While we recognized there are legitimate reasons why some of the employees’ names and
SSNs did not match SSA’s records, we also found cases where the discrepancies could not be
explained. Additionally, as long as the wage items remain in the ESF, DoD employees may not
receive proper credit for their wages, which can affect their eligibility for and/or the amount
of the retirement, disability, or survivor benefits. To assist SSA in achieving its goal to increase
the accuracy of earnings records, we recommended that it: (1) make the necessary corrections


                                                                                                       23
     Semiannual Report to Congress                            October 1, 2004 — March 31, 2005




     for the cases referred to during the audit; (2) work closely with each DoD component to
     encourage the use of verification services; and (3) share with each DoD component all wage
     items that are placed in the ESF. SSA agreed with our recommendations.

     Employers with the Most Suspended Wage Items in the 5-Year Period
     1997 – 2001
     Our objectives for this audit were to: (1) identify the 100 employers responsible for sending
     the most wage items to the ESF in the 5-year period 1997 – 2001; and (2) identify patterns
     of errors and irregularities in wage reporting or other reasons for the large number of ESF
     items for the 100 employers during that time period.
     We found that a small number of identifiable employers account for a disproportionate
     number of ESF items and wages. e 100 employers identified were responsible for
     approximately 7 percent of the total ESF items and about 5 percent of the total ESF wages
     during the 5-year review period. e employers were mainly in three industries: services,
     restaurants, and agriculture. e top 100 employers’ payroll offices were located in 27 States.
     We found that 54 of these employers were located in three States—California, Texas, and
     Illinois—representing almost 1.5 million wage items and over $4.8 billion in wages during
     TYs 1997 – 2001. California had the highest number of top 100 employers, with 25 employers
     representing about 683,000 wage items and approximately $2 billion in wages during the
     audit period. In addition, 20 of the 100 employers had more than 60 percent of their reported
     wage items in the ESF.
     To pursue corrective actions with employers, SSA has Employer Service Liaison Officers
     (ESLO) in each region to resolve wage-reporting problems. On a yearly basis, a list of
     the employers with 100 or more suspended wage items within a region is developed in
     Headquarters and sent to the ESLOs for follow-up contact with the employer. We reported
     that SSA is developing an Earnings Data Warehouse (EDW), which could assist the ESLOs
     in providing statistics and other useful data when reviewing the top 100 employer listings.
     We recommended that SSA: (1) create centralized EDW reports to assist ESLOs with
     identifying problematic employer reporting trends, such as increases in the volume of wage
     items in suspense, as well as the percent of an employer’s payroll in the ESF; and (2) ensure
     ESLOs consider employer reporting trends in identifying employers for assistance.
     SSA partially agreed with our recommendations.

     Financial Reviews
     e Chief Financial Officers Act (as amended) requires OIG or an independent external auditor,
     as determined by the Inspector General, to audit SSA’s financial statements in accordance with
     the Government Accountability Office’s G A S. In addition
     to this requirement, we also conduct other financial-related audits of SSA’s operations and
     review the quality of single audits conducted by State auditors and public accounting firms.



24
 October 1, 2004 — March 31, 2005                        SSA Office of the Inspector General




e following summarizes a selection of our financial reviews and audit work for this reporting
period.

Audit of the FYs 2004 and 2003 Financial Statements of SSA and the
Results of OIG’s Review ereof
PricewaterhouseCoopers LLP (PwC) performed SSA’s FY 2004 Financial Statement Audit.
On November 8, 2004, PwC issued an unqualified opinion on SSA’s FY 2004 financial
statements. In PwC’s opinion, “…the consolidated and combined financial statements…
present fairly, in all material respects, the financial position of SSA at September 30, 2004
and 2003…” However, PwC’s audit report identified a reportable condition related to SSA’s
need to further strengthen internal controls over information protection. SSA generally agreed
with this finding and PwC’s related recommendation.

Administrative Cost Audits of DDSs
Disability determinations under SSA’s DI and SSI programs are performed by DDSs according
to Federal regulations. e DDS in each State or other responsible jurisdiction performs
disability determinations of claimants’ medical eligibility. SSA reimburses the DDS 100
percent for allowable expenditures.
ere are 52 DDSs located in the 50 States, the District of Columbia and Puerto Rico. In
FY 2004, SSA allocated about $1.7 billion to fund State DDS operations.
During this reporting period, we performed DDS administrative cost audits for the States of
Arizona, South Carolina, and South Dakota. e objectives of these audits were to evaluate
internal controls over the accounting and reporting of administrative costs, and to determine
whether costs claimed were allowable and funds were properly drawn. Our findings and
recommendations related to:
  • Unallowable indirect costs;
  • Inappropriate cash management practices;
  • Overstated disbursements and unliquidated obligations;
  • Excessive consultative examination payments;
  • Internal control weaknesses involving accounting for and reporting of administrative
    costs; and
  • Internal control weaknesses relating to access to SSA computer hardware, software and
    sensitive data.
In total we reported $515,000 in questioned costs and $771,000 in funds that could be
put to better use. Most of our recommendations were for the DDSs to comply with Federal
regulations, as well as SSA policies and procedures.



                                                                                                 25
         Semiannual Report to Congress                             October 1, 2004 — March 31, 2005



     SSA Agency Operations
     Access to Secured Areas in Regional HOs
     During this reporting period, we completed physical security audits at eight Office of Hearings
     and Appeals (OHA) offices—two HOs in each of four regions (Boston, Philadelphia, Atlanta,
     and Dallas). e objectives of our audits were to review controls over access to secured areas in
     the offices. We are completing similar reviews in the remaining six regions.
     OHA is one of the largest administrative adjudicative systems in the world. Claims folders
     containing sensitive information about the claimant, such as SSNs and private medical
     information, are stored, reviewed, and moved throughout the HO. Both SSA employees and
     authorized non-SSA employees are on-site conducting work in many different capacities in these
     offices. To protect its employees, facilities and records against physical security threats, OHA has
     policies and procedures to safeguard HO access and to protect Government property, on-site
     personnel, and sensitive data.
     Our findings and recommendations in the eight HOs related to:
       • Intrusion detection systems;
       • Installing and testing duress alarm systems;
       • Changing locks and pass codes when employees leave permanently;
       • Controls over keys and proximity cards;
       • Installing locks on certain hearing room doors;
       • Access of cleaning personnel and other non-employees after hours; and
       • Lack of peepholes on doors.
     For example, with regard to intrusion detection systems: (1) HOs were not changing the pass
     codes when employees left OHA employment; (2) management was not periodically testing the
     systems and recording the test results; and (3) HOs were issuing the same system access codes to all
     employees, thereby limiting management’s ability to properly monitor the use of the system.
     ese four reports contained 28 recommendations. SSA agreed with our recommendations and
     has either taken or scheduled corrective action for each recommendation.

     e Effects of Staffing on HO Performance
     Our objective was to examine how staffing affects HO performance in the areas of productivity
     and timeliness. Within SSA, OHA is responsible for holding hearings and making decisions on
     appealed determinations involving the OASDI and SSI programs. At the end of FY 2004, OHA
     had 6,475 full-time permanent employees in its 140 HOs, representing approximately 10 percent
     of SSA’s workforce. According to OHA executives, the key criteria for analyzing HO performance
     are the disposition rate (dispositions per day per administrative law judge (ALJ) and timeliness
     (average processing time)). Since FY 1999, OHA has improved its disposition rate; however,

26
 October 1, 2004 — March 31, 2005                          SSA Office of the Inspector General



timeliness has declined. In FY 1999, OHA’s disposition rate was 2.03 dispositions per day per
ALJ, while in FY 2004 the disposition rate improved to 2.40. During the same time period,
OHA’s average processing time increased from 316 days to 391 days.
Over the last 5 years, HO receipts have outpaced dispositions every year, resulting in a large
increase in pending claims and an adverse effect on timeliness. Nonetheless, OHA’s HO
productivity levels have actually increased in terms of disposition rate, though total dispositions
have not surpassed FY 1999 levels. Our analysis revealed that HO staffing ratios may be a good
indicator of performance, especially in offices with low staffing ratios. OHA might improve its
productivity if it considered staffing ratios when making staffing allocations to HOs. Further,
OHA could be aided in its staffing decisions by determining an ideal staffing ratio for its HOs.
We also found that despite the file assembly contractors filling a critical need in these offices,
OHA has not measured the effect that file assembly contractors have had on staffing ratios,
dispositions and timeliness in those offices that used file assembly contractors.
To improve overall staffing at the HOs and assist OHA in meeting its performance goals, we
recommended that SSA: (1) consider developing an ideal national staffing ratio to assist OHA
in allocating staff to HOs; and (2) consider prioritizing file assembly assistance for those offices
that have staffing ratios below the national staffing ratio.

Overall, SSA was in agreement with our recommendations, but commented that with respect
to staffing ratios, factors other than ratios needed to be considered in allocating staff, and that
resources should be distributed to the offices where they will be most productive. SSA also
commented that contractors were no longer being used to prepare cases, but had been replaced
with permanent file assembly units.

Performance Indicator Audits: Audits of SSA’s Performance Data
We contracted with PwC to evaluate SSA’s performance indicators established to comply with
the Government Performance and Results Act. For each performance indicator, PwC’s objectives
were to:
  • Test critical controls over the data generation and calculation processes for the specific
    performance indicator;
  • Assess the overall adequacy, accuracy, reasonableness, completeness, and consistency of the
    performance indicator and supporting data; and
  • Determine if each performance indicator provides meaningful measurement of the program
    and the achievement of its stated objectives.
During FY 2005, we released four reports that contained the results of PwC’s work. ese reports
included results of reviews of six individual SSA performance measures and summarized PwC’s
recent audits. e reports included:
  • Performance Indicator Audit: Processing Time;
  • Performance Indicator Audit: Productivity;

                                                                                                       27
      Semiannual Report to Congress                               October 1, 2004 — March 31, 2005




       • Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials
         Combined; and
       • Performance Indicator Audit: General Observations.
     In these reports, PwC noted areas for improvement in SSA policies and procedures. Specifically,
     SSA did not ensure that each performance indicator was fully described in a complete,
     accurate, reliable, and explicit manner in SSA’s FY 2003 Performance and Accountability
     Report (PAR). SSA believes that its FY 2004 PAR included clear descriptions and definitions
     of each performance indicator.

     Management Advisory Report: Proper Disposal of Sensitive Documents at
     SSA Headquarters
     e objective of our review was to present to SSA management areas of concern with regard
     to SSA’s policies and procedures for the proper disposal of sensitive documents.
     SSA’s procedures dictate that individual records containing privacy-related information must be
     destroyed by shredding, burning, or pulping. Individual offices or components may accomplish
     this by designating separate burn bags or shredding individual documents.
     During a separate audit, we identified concerns regarding employees disposing of sensitive
     information that was not shredded. e unshredded documents contained SSNs and other
     identifying information, such as names, addresses, earnings, and dates of birth.
     We made several recommendations to improve SSA’s policies and procedures regarding disposal
     of sensitive documents. SSA agreed with our recommendations.
     is report contains restricted information for official use. Distribution is limited to authorized
     officials.

     SSA’s Regional Office (RO) Procedures for Addressing Employee-Related
     Allegations
     SSA receives various types of allegations related to its programs, the misuse of SSNs and employee
     conduct. Some examples of employee-related allegations include time and attendance, service
     issues, and the theft of Government property. SSA receives these allegations from employees,
     the public, and OIG. Allegations concerning SSA employees are significant because of the
     potential monetary losses to SSA’s programs and the corresponding negative public impact. To
     determine the validity of allegations, SSA is required to obtain sufficient evidence to support
     or remove suspicion that criminal violations may have been committed.
     During this reporting period, we completed reviews of procedures for addressing
      employee-related allegations in three SSA ROs, as well as in SSA’s Office of Systems. In
     our 4 reports, we made a total of 12 recommendations for corrective action. e objectives
     of our reviews were to evaluate the adequacy of SSA’s policies and procedures for addressing
     employee-related allegations, to determine how well SSA complied with its policies and

28
 October 1, 2004 — March 31, 2005                         SSA Office of the Inspector General




procedures, and to determine whether SSA referred all employee-related allegations warranting
further investigation to OIG.
Nine of our recommendations were made to SSA’s ROs in Kansas City and Seattle and
related to:
  • Lack of maintenance of documentation supporting the recording, investigation, and
    resolution of employee-related allegations; and
  • Instances where potential criminal violations were not forwarded to OIG.
SSA agreed to take action to address all of our recommendations for these two regions.
In our report to SSA’s Office of Systems, we made three recommendations related to
establishing a system of records. SSA did not agree with the recommendations and stated, “Any
control system as described in the OIG recommendations would have to be part of a system
of records established under the provisions of the Privacy Act.” In addition, SSA stated, “Any
system of records would have to be consistent with existing and future collective bargaining
agreements.” While we acknowledged SSA’s concerns, we believe the issues raised should be
addressed to ensure uniformity throughout the Agency—particularly in view of the existence
of allegation control logs in SSA’s ROs and SSA’s acceptance of similar recommendations in
the Regions we reviewed.

SSA’s Compliance with the Employee Retirement Income Security Act
(ERISA)
Since 1974, ERISA has required SSA to inform certain individuals of their potential eligibility
for deferred vested benefits from private pension plans. SSA receives both paper and electronic
ERISA reports. We initiated this audit to determine how well SSA is complying with provisions
of ERISA, and offer cost-effective recommendations to enhance SSA’s processing of this
workload.
In evaluating the receipt and processing of electronic records, we found SSA was unable
to meet all of the responsibilities required by ERISA. We noted that while the Department
of Labor’s (DOL) ERISA Filing Acceptance System (EFAST), developed in conjunction
with the Internal Revenue Service (IRS) and the Pension Benefit Guaranty Corporation
(PBGC), was designed to streamline the process for filing and processing the Form 5500s,
A R/R  E B P, at the time of the review SSA did
not have a computerized system to process them. As a result, we reported a backlog of
8.87 million EFAST records (2.96 million beneficiary records and 5.91 million pension plan
administrator changes). While we do not know how many of the 2.96 million unprocessed
beneficiary records would result in an ERISA notice, even if it is only 1 percent, approximately
29,600 individuals would not have been informed timely of their potential entitlement to
approximately $287.5 million in annual benefits.
In reporting on the manual processing of ERISA transactions at the Wilkes-Barre Data
Operations Center (WBDOC), SSA personnel estimated that between 25 and 50 percent

                                                                                                   29
     Semiannual Report to Congress                             October 1, 2004 — March 31, 2005




     of the paper records received from the IRS were incomplete or illegible and, therefore, could
     not be processed without additional work. We noted that despite the Memorandum of
     Understanding (MOU) between SSA and IRS that requires IRS to (1) send complete and
     legible data; and (2) contact plan sponsors when the data is incomplete or illegible, WBDOC
     staff were contacting plan administrators to obtain data and then process the records. We also
     identified the need to develop an MOU with the PBGC, the need to ensure that adequate
     controls are in place to prevent improper entries in the ERISA database, and the need to
     document formal procedures to handle ERISA inquiries from the public.
     We recommended that SSA: (1) continue to develop and implement its system to process all
     electronic EFAST records as soon as practicable; (2) formally participate on the development
     team for DOL’s EFAST 2 project; (3) determine what its responsibilities are under ERISA and
     its obligations concerning the MOU with IRS regarding incomplete and illegible documents;
     (4) develop and implement an MOU with PBGC to specify roles and responsibilities of both
     parties regarding the sharing of information; (5) ensure that adequate controls are in place to
     prevent improper changes or deletions of records in the ERISA database; and (6) document
     and implement formal procedures for the ERISA process, including the handling of ERISA
     inquiries from the public.
     SSA agreed with our recommendations.




30
 October 1, 2004 — March 31, 2005                         SSA Office of the Inspector General




OIG Investigative Matters
OI protects the integrity of SSA’s programs by investigating allegations of fraud, waste, and
abuse. ese include investigations of grant and contract fraud, as well as violations by SSA’s
employees and by those who attempt to secure benefits illegally.
Our investigations can result in criminal or civil prosecutions and civil monetary penalties
against wrongdoers, and can act as a deterrent against those contemplating fraud against
SSA and its beneficiaries. We also propose systemic changes for remedying program flaws
detected during investigations to prevent future fraudulent activities. Special fraud alerts are
issued to warn SSA and others of illegal schemes that deplete the Social Security trust funds
or victimize beneficiaries.
Our policy is to concentrate our resources on homeland security issues and criminal
investigations relating to the programs and operations of SSA. ese investigations include
the following:
  • Allegations of employee misconduct/criminal activity;
  • Program fraud cases (Title II–Federal OASDI and Title XVI–SSI for the Aged, Blind,
    and Disabled);
  • Enumeration cases (enumeration is the process of establishing legitimate SSNs and
    maintaining records established there under); and
  • SSN misuse unrelated to SSA programs.
Our Headquarters operation consists of six divisions, each headed by a Special
Agent-in-Charge. e following is a summary of each OI division and its primary areas of
responsibility.

ALLEGATION MANAGEMENT DIVISION (AMD)
AMD was established in 1998 to ensure investigative oversight of the SSA Fraud Hotline.
e most critical part of AMD’s mission is to provide the public with an avenue for reporting
allegations of fraud and to process these allegations in a timely, efficient, and professional
manner. e public reports fraud, waste, and abuse to AMD through our toll-free Hotline,
internet/email, facsimile, and U.S. mail communications. AMD refers the allegations received
to OI FDs, other OIG offices, SSA, or outside agencies as appropriate. Services are now
provided in English and Spanish as well as through a TTY device to communicate with
hearing-impaired citizens.

CRITICAL INFRASTRUCTURE DIVISION (CID)
CID oversees the OIG management information system for investigations and prepares
statistical reports using that information. CID also coordinates with various SSA components
and government agencies to ensure that OIG is aware of the latest concerns, requirements, and



                                                                                                   31
     Semiannual Report to Congress                            October 1, 2004 — March 31, 2005




     techniques relating to critical infrastructure protection. Other CID responsibilities include
     managing the OIG Electronic Crimes Team and ensuring OIG’s continuity of operations.

     ENFORCEMENT OPERATIONS DIVISION (EOD)
     EOD is responsible for day-to-day coordination of the investigative and administrative
     information flow between OI Headquarters and its FDs. is coordination includes facilitating
     requests for homeland security or undercover investigations. EOD also provides liaison with
     other law enforcement agencies and SSA components that require assistance from or provide
     assistance to OI Field Divisions (FD). Other EOD responsibilities include oversight of the
     Regional Anti-Fraud Committees in each of the 10 FDs and the issuance of National and
     Regional Fraud Alerts to OI FDs and to SSA through its Office of Operations.

     FUGITIVE ENFORCEMENT DIVISION (FED)
     e Welfare Reform Act, P.L. 104-193, enacted on August 22, 1996, denies SSI payments to
     fugitive felons and probation and parole violators. e Social Security Protection Act of 2004,
                                   P.L. 108-203, extends this denial of payments to OASDI
                                   beneficiaries, and disqualifies fugitives and convicted felons
                                   from serving as representative payees. Both provisions provide
                                   for the exchange of information with law enforcement to enable
                                   apprehension of the fugitive.
                                   e newly created FED is responsible for identifying these
                                   individuals via automated data matches which compare warrant
                                   information from the National Crime Information Center,
                                   the FBI, the United States Marshals Service and State agencies
                                   with SSA’s beneficiary rolls. SSA currently has data-matching
                                   agreements with numerous States and police departments, and
                                   is in the process of pursuing such agreements with other States.
                                   FED continues working with SSA to further refine and enhance
                                   the automated process.

     MANPOWER AND ADMINISTRATION DIVISION (MAD)
     MAD is responsible for budget, staffing plans, policy development, procurement, personnel
     issues, and general administrative matters for OI. MAD also identifies and procures special
     technical investigative equipment for use by OI personnel. In addition, MAD develops
     and manages training programs for OI personnel and coordinates with the Federal Law
     Enforcement Training Center and the Inspector General Criminal Investigator Academy.

     STRATEGIC ENFORCEMENT DIVISION (SED)
     SED develops and implements innovative anti-fraud initiatives, consistent with OIG strategic
     plans, to protect SSA programs and operations from fraud, waste, and abuse. SED is also
     responsible for planning and coordinating OI’s national investigative operations while


32
 October 1, 2004 — March 31, 2005                        SSA Office of the Inspector General




promoting the judicious and effective use of available resources. To accomplish its mission,
SED identifies systemic and programmatic vulnerabilities in SSA’s operations and makes
recommendations for changes to the appropriate official. In addition, in accordance with
applicable law and policy, SED provides pertinent information from OIG records to assist
Federal, State, and local investigative agencies in detecting, investigating, and prosecuting
fraud.
In addition, SED jointly manages the Cooperative Disability Investigations (CDI) program
with SSA’s Office of Operations and Office of Disability Programs.

FIELD DIVISIONS
Our FDs are responsible for conducting investigations in assigned geographic areas. Currently,
the FDs, and the States and territories they cover, are:
  A:           Alabama, Florida, Georgia, Kentucky, Mississippi, North Carolina,
                     South Carolina, and Tennessee
  B:            Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island,
                     and Vermont
  C:           Illinois, Indiana, Michigan, Minnesota, Ohio and Wisconsin
  D:            Arkansas, Louisiana, New Mexico, Oklahoma, and Texas
  D:            Colorado, Montana, North Dakota, South Dakota, Utah, and
                     Wyoming
  L A:       Arizona, California, Hawaii, Nevada, American Samoa, Guam, and
                     the Northern Mariana Islands
  N Y:          New Jersey, New York, Puerto Rico, and the Virgin Islands
  P:      Delaware, Maryland, Pennsylvania, Virginia, West Virginia, and the
                     District of Columbia
  S:           Alaska, Idaho, Oregon, and Washington
  S. L:         Iowa, Kansas, Missouri, and Nebraska

Investigative Data
e following tables represent the collective efforts of our OI Headquarters divisions and
FDs, including our SSA OIG Fraud Hotline. In addition, we worked on multi-agency
investigations that resulted in almost $76 million in savings, restitution, and recoveries for
those agencies. Non-SSA monies saved or recovered from these joint investigations are not
included in the following charts.




                                                                                                 33
     Semiannual Report to Congress                     October 1, 2004 — March 31, 2005




                                     SSA Funds Reported


                                                 October 1, 2004 – March 31, 2005


      Recoveries                                                        $15,442,687


      Fines                                                                $214,131


      Settlements/Judgments                                                $557,705


      Restitution                                                       $12,055,687


      Estimated Savings                                                 $88,950,961


      TOTAL                                                           $117,221,171




                                     Investigative Results


                                                October 1, 2004 – March 31, 2005


      Allegations Received                                                   38,171

      Cases Opened                                                            4,355

      Cases Closed                                                            4,233

      Arrests/Indictments                                                     1,896

      Total Judicial Actions                                                  1,128

      Criminal Convictions                                                       963

      Civil/CMP                                                                   37

      Illegal Alien Apprehensions                                                128




34
October 1, 2004 — March 31, 2005              SSA Office of the Inspector General




                      Allegations Received by Category


                                       October 1, 2004 – March 31, 2005


SSI Disability                                                         16,444

Disability Insurance                                                   12,510

SSN                                                                      4,593

Old-Age and Survivors Insurance                                          2,956

Other                                                                      724

Employee                                                                   530

SSI Aged                                                                   414

TOTAL                                                                  38,171




                       Allegations Received by Source


                                       October 1, 2004 – March 31, 2005


Law Enforcement                                                        10,104

Private Citizens                                                         9,688

SSA Employees                                                            8,562

Anonymous                                                                8,516

Beneficiaries                                                              782

Public Agencies                                                            510

Other                                                                         9

TOTAL                                                                  38,171




                                                                                    35
     Semiannual Report to Congress                                        October 1, 2004 — March 31, 2005




     CDI Program Results
     e following table highlights the successes of the CDI program in this reporting period.




                         Cooperative Disability Investigations Program Results
                               October 1, 2004 through March 31, 2005


                 State          Allegations        Confirmed Fraud                                    Non-SSA
                                                                            SSA Savings1
                                 Received               Cases                                         Savings1
      Arizona                                 52                    27           $1,542,084               $340,825
      California                            131                     71           $3,685,285             $3,250,517
      Colorado                                44                    25           $1,705,320             $1,470,614
      Florida                                 76                    52           $3,221,436             $2,460,895
      Georgia                               113                     73           $4,518,804             $1,279,222
      Illinois                                49                    36           $2,272,800               $918,870
      Louisiana                               79                    34           $2,085,400               $797,608
      Massachusetts                           39                    31           $1,761,559             $1,254,795
      Missouri                                87                    55           $3,069,613             $1,254,180
      New Jersey                              67                    32           $2,096,407             $1,823,310
      New York                                94                    86           $4,748,929             $5,745,870
      Ohio                                  150                     61           $3,687,240             $2,424,500
      Oregon                                133                     86           $5,170,542             $3,440,395
      Tennessee                               49                    31           $1,856,522             $1,006,414
      Texas  2
                                            160                     96           $5,502,969             $2,546,959
      Virginia                                61                    45           $3,004,020             $1,666,548
      Washington                            176                     88           $5,611,254             $4,350,590
      Total                              1,560                    929         $55,540,184            $36,032,112

       1
           When a CDI investigation supports the cessation of an in-pay case, SSA program savings are calculated
           by multiplying the actual monthly benefit times 60 months. Non-SSA savings are also projected over 60
           months whenever another governmental program withholds benefits as a result of CDI investigations, using
           estimated or actual benefit amounts documented by the responsible agency.
       2
           Texas has 2 units, one in Dallas and the other in Houston.




     Significant Investigations
     During the reporting period, we have conducted over 4,300 investigations covering all of the
     major areas over which we have jurisdiction. e following summaries illustrate the types of
     investigations we undertake.




36
 October 1, 2004 — March 31, 2005                           SSA Office of the Inspector General




Fugitive Felon Investigations
Rapist/Kidnapper Caught in Michigan
Agents from our Detroit office apprehended a Michigan man wanted for kidnapping and
raping a 14-year old girl, transporting her across State lines, and forcing her into prostitution
at truck stops and motels in Indiana. e girl was eventually rescued by a female truck driver
who noticed her youthful appearance and questioned her about her situation. e truck
driver drove the girl away from the truck stop and brought her to police. e fugitive, an
SSI recipient, was arrested on a Federal warrant issued by the Eastern District of Michigan
and turned over to the FBI’s Detroit Violent Crime Task Force.

Gang Member Arrested in California
A man wanted for murder since 2000 was arrested by agents from our Los Angeles FD. e
man was alleged to have shot and killed a rival gang member in 1995. e fugitive was in
the process of applying for SSI benefits in California and was apprehended with help from
the Los Angeles Sheriff’s Department as he arrived for a scheduled appointment at SSA.


Cooperative Disability Investigations
SSI Fraud by Ohio “Traveler” Group
A joint investigation by the Cleveland CDI Unit and the Toledo Police Department revealed
that four individuals within a familial “traveler” group conspired to falsely obtain SSI benefits.
Medical evidence obtained through consultative examinations showed that a significant
number of these SSI recipients exhibited strikingly similar disabilities of such severity
that the individuals appeared almost entirely unable to communicate or function in any
independent fashion. In contrast, local police reports of the same individuals detailed extensive
criminal histories. e group fraudulently netted $74,522 from SSA between 1991–2003.
e four defendants pled “no contest” to conspiracy to commit grand theft. One defendant
was sentenced to 6 months’ incarceration, and the others were sentenced
to 10 days’ incarceration. In addition, all were ordered to serve 5 years’
probation, pay the costs of the prosecution and pay restitution to SSA
of $74,522, divided equally among the defendants. In addition to the
successful criminal case, the investigation also exposed 20 SSI claims as
fraudulent, most of which were filed on behalf of the four defendants’
minor children or other family members. ese claims were subsequently
denied or changed retroactively from allowances to denials.




                                                                                                     37
     Semiannual Report to Congress                              October 1, 2004 — March 31, 2005




     Prosecution of Individual in New Jersey for Fraudulently Collecting
     Disability Benefits
     e Iselin, NJ CDI Unit investigated a man who was awarded Title II disability benefits and
     workers compensation in 1993 for back and knee injuries. Documentation obtained by the
     CDI team determined that he had been self-employed since at least January 1997 as a boat
     detailer. Video surveillance captured him engaging in physical activities inconsistent with
     his alleged limitations. A continuing disability review resulted in a determination that his
     disability had ceased in December 2000. He was charged with making false statements to SSA
     and the Department of Labor (DOL), based on his claim that he had not been employed,
     while receiving disability benefits from DOL and SSA. In December 2004, this individual
     was sentenced to 6 months’ house arrest, 3 years’ probation, a special assessment of $200, a
     $5,000 fine, and restitution of $20,280 to SSA and $9,500 to DOL.

     Cessation of Disability Benefits Paid to Apparently Healthy Young Woman
     Our investigation of a 24 year-old Title II disability beneficiary, who was entitled based
     on asthma, seizures, and stress, revealed that she was attending a 4-year college and was
     participating in school sports during the period she was receiving benefits. In fact, the
     woman received a Bachelor of Science degree in Accounting in December 2002 and was
     an active member of the basketball team for 4 years, also playing soccer and running track.
     Her basketball coach stated the woman received a physical exam each year which showed
     she was in good physical and mental health. e coach also stated she participated in daily
     practices with no apparent problems. Videotapes of the claimant playing in college basketball
     games were obtained. CDI investigators interviewed the woman, who admitted making false
     statements to the doctors to continue receiving her disability benefits. e woman’s benefits
     were ceased and, because fraud was detected, there was a reopening/reversal of the initial
     allowance in 1999, which resulted in an overpayment of $30,018. In June 2004, the woman
     was indicted on one count of Social Security fraud, to which she pled guilty. In January 2005,
     she was sentenced to 5 years’ probation.

     Cessation of SSI Disability Benefits to Man Alleging Mental Retardation
     e New York CDI Unit investigated a 26 year-old man who had been receiving Title XVI
     disability benefits since July 1994 based on a diagnosis of mental retardation. e man
     alleged a fear of traveling alone, a fear of getting lost, back pain, headaches, and an inability
     to comprehend instructions. e man also alleged the need for a Vietnamese translator, even
     though he had lived in the United States since he was 2 years old. is matter came to the CDI
     Unit’s attention because his part-time work history at Airborne Express seemed inconsistent
     with his medical evidence. SSA records indicated that wages began in 1998 but stopped in
     2000, shortly after their discovery through a wage alert. CDI investigators located the man at
     an address he had given when applying for his driver’s license (he was not known at the address
     he supplied to SSA) and found him wearing an Airborne Express uniform when he came to
     the door. e man appeared surprised that SSA officials had located him at this address. He

38
 October 1, 2004 — March 31, 2005                        SSA Office of the Inspector General




stated in part that he was in a hurry to get to work and that he had intended to advise SSA that
he had recently returned to work. e man’s disability benefits were ceased.


Double Check Negotiation (DCN)
In late 2002, the New York FD began an investigative project designed to deter a practice
by a growing number of SSI recipients, which entails cashing monthly benefit checks, falsely
claiming non-receipt, and ultimately cashing a replacement check to which the recipient is not
entitled. In conjunction with OA, OI subsequently launched a national project by sending out
over 11,000 investigative referrals for subjects with five or more occurrences of DCN over a
42-month period. SSA reports that its efforts in the areas of training and systems improvements,
together with OIG’s vigilance, have resulted in an 18 percent decrease in incidents of DCN
over the 3 years ending with this reporting period.

Man Negotiated over $20,000 in Original and Replacement SSI Checks
An SSI beneficiary was found to have lied on 37 separate occasions between February 1998 and
June 2003, claiming not to have received his SSI check in order to have a replacement check
issued. He admitted that he received, signed, cashed, and spent all original and replacement
SSI checks, thus defrauding SSA of $20,307. is individual pled guilty to the charge of theft
of government funds and was sentenced to 6 months’ home confinement, 2 years’ probation,
and restitution to SSA $20,307. is investigation was undertaken by the Batavia, NY OIG
office as part of the DCN pilot project.

Recipient Cashed 29 Replacement Checks after Receiving Original Checks
e Fresno, CA OIG office uncovered another incident of DCN based on information supplied
by the Modesto, CA Social Security office. SSA personnel reported that an SSI beneficiary had
routinely contacted SSA to request a replacement check for her SSI benefit payment. She then
negotiated both the original and replacement checks. From February 2000 – April 2003, this
individual negotiated 29 replacement checks after receiving the original check each month.
During an interview with an OIG investigator, she admitted to cashing all of the original and
replacement checks. She ultimately pled guilty to a theft of government property charge and
was sentenced to 1 year of probation and restitution of $21,433 to SSA.

Cashing Original and Replacement SSI Checks Results in Prosecution
Another investigation undertaken as part of the national DCN project involved a California
woman who had repeatedly requested replacement checks for her SSI benefit payment
and then proceeded to negotiate both the original and the replacement check. From
June 1999 – October 2003, she negotiated multiple replacement checks after already receiving
and cashing the original check that month. e woman confessed the scheme to our agents. e
total loss to SSA was $14,730, of which $2,239 has been recovered. She was sentenced to 400
hours of community service, 3 years’ probation, and restitiution of $12,491 to the Agency.

                                                                                                   39
     Semiannual Report to Congress                              October 1, 2004 — March 31, 2005




     Deceased Payee Investigations
     Son Conceals Father’s Death for Over 7 Years
     On the basis of information received from the Atlanta West Social Security office, our Atlanta
     office investigated an allegation that SSA had paid Title II retirement insurance benefits to an
     individual after his death. We found that the beneficiary’s son concealed his father’s death from
     October 1994 until June 2002 and continued to receive his father’s benefits after his death.
     As a result, SSA suffered a loss of $178,637 of which $80,598 was recovered from a bank
     account into which the funds had been deposited. e individual pled guilty to wire fraud
     and was sentenced to 18 months’ incarceration, 3 years’ supervised release, and restitution
     to SSA of $98,039.

     Daughter Cashes Over $139,000 Worth of Deceased Mother’s Benefits
     Our Cleveland, Ohio office examined a case in which a woman cashed her deceased mother’s
     Title II retirement insurance checks from May 1989 – August 2001, which resulted in an
     overpayment of $139,091. During this period, the woman was an Army officer. She retired
     from the Army in 1999 and then became employed as a DoD ROTC instructor in California.
     She was made aware that the case was being worked jointly with DoD’s Defense Criminal
     Investigative Service (DCIS) and that it had been presented to the U.S. Attorney’s Office
     (USAO) for prosecution. She was concerned about losing her military pension and her security
     clearance as a DoD contractor. Prior to a grand jury indictment, she paid back $128,407 to
     SSA, hoping to avoid prosecution. However, the USAO decided that she posed a potential
     risk as a DoD contractor and pursued the case. As a result, she pled guilty to one felony count
     and was sentenced to a 6 month Home Confinement Program with electronic monitoring,
     2 years’ probation, and restitution to SSA of an additional $10,684. According to DCIS, she
     cannot work as an ROTC instructor for DoD with a felony conviction on her record.

     Detroit Bank Employee Appropriates Over $75,000 in Benefits Paid into
     Deceased Woman’s Account
     As part of the OIG National Medicare Non-Usage Project (an anti-fraud initiative designed to
     detect unreported deaths through a review of aged individuals with long periods of nonusage
     of Medicare), information was received that a Title II retirement insurance beneficiary was
     believed to be deceased. Our Detroit office determined that she had died in January 1988 and
     that $95,699 had been paid after her death to a bank account in Detroit. Further investigation
     revealed that only $18,419 remained in the account and that $77,280 had been stolen from
     the account. Our investigation determined that a bank employee masterminded a conspiracy
     with another bank employee and a third person to withdraw the funds from the account. e
     bank employee was sentenced to 21 months’ incarceration, 3 years’ supervised release, and
     restitution to SSA of $77,280. e judge also revoked her bail because of failed drug testing
     and ordered the U.S. Marshals Service to immediately take her into custody.


40
 October 1, 2004 — March 31, 2005                          SSA Office of the Inspector General




Daughter Cashes Checks of Mother Dead for 20 Years
Our New Haven, Connecticut office investigated a case in which an individual receiving
Title II widow’s benefits had not filed a Medicare claim in 3 years. We determined that she
had been a beneficiary since 1965 and that she was currently receiving these benefits via
U.S. Treasury Check at an in-care-of address. Our search of commercial databases revealed
the name of an individual who resided at the same address as the beneficiary and SSA
records revealed that she was the daughter of the beneficiary. During an interview with our
investigators, the daughter acknowledged that her mother died in April 1982. She admitted
that she continued to receive and cash her mother’s SSA checks after her death and used
the proceeds for herself and that she knew what she was doing was wrong. We obtained the
beneficiary’s death certificate from which SSA determined that, from 1982 through 2002,
$116,167 in SSA benefits were paid after her death. e daughter pled guilty to a theft of
government property charge and was sentenced to 3 years’ probation and restitution to SSA
of $116,167.


Disability Program Fraud
Disability Beneficiary Received over $100,000 in Benefits While
Continuing to Work under Another SSN
After receiving an allegation from the Office of Security and Integrity in SSA’s Philadelphia
Region, our Baltimore office initiated an investigation into an individual who received Social
Security benefits under two different SSNs and names, having fraudulently applied for the
second SSN. Our investigation indicated that the individual filed a fraudulent disability claim
under her original SSN while continuing to work and conceal wages from SSA under her
second SSN. She pled guilty to a theft of government property charge and was sentenced to
12 months’ incarceration, 2 years’ supervised release, and restitution to SSA of $123,918.

Beneficiary Uses Brother’s SSN to Amass Over $150,000 in Fraudulent
Benefits
e Anniston, AL Social Security office alerted us to a situation that ultimately was found
to involve a Title II disability beneficiary who was working under his brother’s SSN. While
checking a prisoner alert on the beneficiary’s own SSN, staff of the office was told by the
beneficiary that this was an error caused by his brother’s use of his SSN when he was sentenced
to prison. In fact, the situation was somewhat the reverse, with the beneficiary actually working
under his brother’s true SSN for over 10 years, while receiving benefits at the same time.
e beneficiary was indicted for misuse of an SSN, concealment of a disqualifying event
to fraudulently receive SSA Title II disability insurance benefits, and theft of SSA funds.
Upon indictment, he claimed he had Alzheimer’s disease and was unable to stand trial. After
evaluation, the court found him to be competent and he subsequently entered a guilty plea.


                                                                                                    41
     Semiannual Report to Congress                               October 1, 2004 — March 31, 2005




     is individual was sentenced in December 2004 to 1 year in prison, 3 years of supervised
     release, a $300 assessment fee, and restitution to SSA in the amount of $152,037.

     SSI Beneficiary Makes Fraudulent SSI Claims for Six Children
     Our Phoenix, AZ office opened an investigation into the mother of six minor children,
     all SSI beneficiaries, because her statements and the children’s behavior during evaluations
     were inconsistent with their normal daily behavior, as documented by school records
     and reports. e woman, also an SSI beneficiary, alleged that her children all had mental
     disorders and spoke on behalf of her children during evaluations. Our investigation led to
     SSA’s determination that none of the children were disabled as alleged. In fact, one of the
     daughters, receiving SSI for affective disorders, was revealed to be attending college classes and
     playing on the basketball team. e other children underwent psycho-educational evaluations
     and mental health screenings that contradicted their claims of mental retardation and other
     mental disorders.
     e investigation into the children’s SSI benefits also led to the discovery that their mother,
     herself receiving SSI for affective disorders since September 2000, had concealed a marriage
     that affected her own benefit eligibility. e woman pled guilty and was sentenced in
     October 2004 to 12 months and 1 day of incarceration, 3 years’ supervised release, and
     ordered to pay $222,000 in restitution to SSA.

     Woman Receives Title II and XVI Benefits Under Two Different Names
     A woman in California was found to be receiving Title II and Title XVI benefits under
     two different SSNs, using her own name and an alias. e Riverside Social Security office
     alerted our Los Angeles office to this situation. We served a search warrant at her home and
     seized numerous items in the name of the alias. We interviewed her during the search and
     she admitted to fraudulently receiving the benefits under the false identity. She was charged
     with theft of government funds and making false statements as part of her application for
     SSI benefits and was sentenced to 8 months’ home confinement, 1 year of probation, and
     restitution of $57,122 to SSA.

     Systems Security Violations
     Misdirection of SSI Checks by SSA Claims Representative (CR) in
     Tennessee
     We investigated a referral from a local bank security officer in Tennessee who reported
     that there were several questionable deposits of SSI checks into the account of one of their
     customers. Our investigation revealed that an SSA CR had improperly accessed SSA’s system
     to fraudulently misdirect SSI funds into his girlfriend’s bank account. To accomplish this, the
     CR accessed an existing SSI beneficiary’s record and routed numerous one-time payments
     to the account. e CR’s employment with SSA was terminated and he was sentenced to


42
 October 1, 2004 — March 31, 2005                         SSA Office of the Inspector General




21 months’ incarceration, 3 years of supervised release, a $2,500 special assessment, and
restitution to SSA of $149,196. His girlfriend was convicted on numerous counts of theft
and money laundering and was sentenced to 15 months’ incarceration, 2 years of supervised
release, a $500 special assessment, and ordered to pay $23,132 in restitution to SSA.


Employee Fraud
SSA Employee Sentenced for Issuing 50 Social Security Cards to
Undocumented Aliens
Our Fort Lauderdale office initiated an investigation based on an anonymous complaint that
an SSA employee in the Miami, FL area was selling SSN cards to undocumented aliens. e
investigation revealed that from July 1998 – September 2002, the employee fraudulently
processed and issued more than 50 SSN cards. e employee was terminated and entered a
guilty plea to an indictment that charged her with producing false identification documents.
In October 2004, the former employee was sentenced to 21 months’ incarceration, 3 years
of supervised release, and a special assessment of $3,200.

SSA Employee and Accomplice Sentenced for Creating Fake Claimants
During this reporting period, a former SSA CR and her accomplice, both subjects of an
investigation detailed in our April – September 2004 Semiannual Report to Congress, were
sentenced. Beginning in 1993, they had worked together to create 37 fictitious identities,
assign SSNs to them, and authorize the payment of $1,266,825 in Title II survivor’s benefits
to them via direct deposit to accounts they controlled in multiple financial institutions. e
former employee was sentenced to 46 months’ incarceration, 3 years of supervised release,
a $100 special assessment, and restitution to SSA of $1,266,825. At the sentencing, the
employee failed to turn over the balance of her Federal Employee Retirement System account,
as stated in her plea agreement, so she was not given full consideration for cooperating with
the government. Due to her failure to make that payment, she was ordered to be incarcerated
for the maximum penalty under the Federal Sentencing Guidelines. Her accomplice was
sentenced to 24 months’ incarceration, 3 years of supervised release, a $100 special assessment
fee and restitution to SSA in the amount of $1,120,805.




                                                                                                  43
     Semiannual Report to Congress                            October 1, 2004 — March 31, 2005




     OIG Legal Matters
     OCCIG provides independent authoritative legal advice, guidance, and counsel to the
     Inspector General and OIG staff on the full range of OIG’s responsibilities. In addition,
     OCCIG carries out several unique program functions.


     Civil Monetary Penalty (CMP) Program
     OCCIG administers the CMP statutes under a delegation of authority from the Commissioner
     of Social Security. is allows OIG to impose CMPs against individuals or entities that violate
     sections 1129 or 1140 of the Social Security Act (the Act).

     False Statements Under Section 1129
     Section 1129 of the Act allows for the imposition of a CMP against those who make false
     statements or representations of material facts or who omit material facts from statements
     or representations in connection with obtaining or retaining benefits or payments under
     Titles II, VIII, or XVI of the Act. After consultation with DOJ, OCCIG is authorized to
     impose penalties of up to $5,000 against individuals for each false statement, representation
     or omission. A person may also be subject to an assessment, in lieu of damages, of up to twice
     the amount of any resulting overpayment.
     e Social Security Protection Act of 2004, P.L. 108-203, enacted March 2, 2004, extends CMP
     authority to: penalize representative payees for wrongful conversion of payments made under
     Titles II, VIII, or XVI; and penalize individuals for the knowing withholding of a material
     fact, when the individual should have come forward but did not.
     e following table and cases highlight our Section 1129 accomplishments for this reporting
     period.

                        False Statements Under Section 1129 Results
                                                         October 1, 2004 – March 31, 2005
      Cases Received                                                                        207
      CMP Cases Initiated                                                                    77
      CMP Cases Closed                                                                      135
      CMP Penalties and Assessments                                                   $288,285
      Number of Hearings Requested                                                            2




44
 October 1, 2004 — March 31, 2005                         SSA Office of the Inspector General




Woman Exploits World Trade Center (WTC) Tragedy
On October 21, 2001, a New York woman falsely reported that her daughter died in the
September 11, 2001 attack on the WTC. e woman applied for survivors benefits under
her daughter’s account and falsely stated that she had custody of her daughter’s two sons. In
fact, the woman’s daughter was alive and caring for her two sons. As a result of the fraud, the
woman improperly received $5,375 in Social Security benefits, $15,250 from the American
Red Cross, and $1,500 from Safe Horizons. Based on a New York FD investigation, the
woman was criminally prosecuted for larceny and fraud. She was sentenced to a 6-month
jail term and 5 years of probation. Despite the theft of over $22,000 in funds intended for
the victims of the terrorist attack, the woman was never ordered to pay criminal restitution.
Subsequent to the criminal prosecution, OCCIG imposed a $15,000 CMP and a $10,750
assessment, for a total of $25,750.

Man Fails to Report Marriage
A Dallas man who was receiving benefits as an adult disabled child falsely informed SSA
that he had never been married. An investigation by OIG revealed that this individual was
married, and a police officer notified SSA that he threatened to harm his wife if she notified
SSA of the marriage. During the investigation, in a signed, sworn statement to OIG agents,
the man admitted to failing to notify SSA of his marriage. Consequently, OCCIG imposed
a $5,000 CMP and a $29,888 assessment for a total levy of $34,888 against the subject.

Misleading Advertising Under Section 1140
Section 1140 of the Act prohibits the use of SSA’s program words, letters, symbols,
or emblems in advertisements or other communications in a manner that
falsely implies SSA’s approval, endorsement, or authorization. An individual
or entity that violates this provision is subject to a maximum penalty of
$5,000 for each misleading communication.
Two provisions of the Social Security Protection Act of 2004 also extended
enforcement authority under Section 1140 by:
  • Requiring entities to clearly state that the product or service they offer
    for a fee is available directly from SSA free of charge; and
  • Expanding the list of prohibited terms to include many that seniors and others
    commonly associate with Federal benefits, especially SSA programs and benefits, such
    as “Death Benefits Update” and “Funeral Expenses.”
Our nationwide enforcement efforts in this area continue to send a clear message to companies
that use the name and reputation of Social Security to deceive the public.




                                                                                                  45
     Semiannual Report to Congress                               October 1, 2004 — March 31, 2005




     e following table and cases highlight our Section 1140 accomplishments for this reporting
     period.



                    Misleading Advertising Under Section 1140 Results

                                                           October 1, 2004 – March 31, 2005

      Complaints Received                                                                         20

      New Cases Opened                                                                             9

      Cases Closed                                                                                11

       No Violation                                                                                2

      Voluntary Compliance                                                                         9

       Settlement Agreement (of cases/amounts)                                                     0

       Penalty/court Action (of cases/amounts)                                                     0

       Hearings Requested                                                                          0

     Law Firm Ceases Misleading Advertising
     An Indiana law firm was advertising in the local yellow pages using an image of the Social
     Security card in a manner that conveyed the false impression that their firm was endorsed,
     authorized, or affiliated with SSA. We issued a letter ordering the firm to cease and desist
     from using the image of the Social Security card in a misleading manner. e firm agreed
     not to use the image in any future advertisements.

     Insurance Company Revises Misleading Mailers
     Senior Security Benefits, a Louisiana-based company, mailed solicitations to senior citizens
     purporting to offer information on a “final expense benefit program” to supplement funeral
     expenses paid by Social Security. ese solicitations created the false impression that the
     benefit program was approved, endorsed or authorized by SSA. In fact, the company collected
     sensitive information from unknowing seniors and sold that information to private insurance
     companies for a fee. In response to a cease and desist letter we issued, the company voluntarily
     agreed to revise its violative solicitations to make clear that the offer involved was for the sale
     of private insurance plans. We continue to monitor the revised solicitations to ensure that
     there is no confusion regarding the company’s non-governmental status.


46
 October 1, 2004 — March 31, 2005                           SSA Office of the Inspector General




rough previous CMP enforcement measures, we have imposed over $7.4 million in
penalties and assessments since FY 1998. With the greater enforcement powers afforded to
OCCIG through the Social Security Protection Act of 2004, we anticipate an increased caseload
and continued results as the new CMP provisions become effective. During this reporting
period, OCCIG drafted regulations implementing the new CMP provisions outlined in the
Social Security Protection Act of 2004. e proposed regulations were approved by OMB and
published in the Federal Register on March 22, 2005.


Legislation
During FY 2004, we provided substantive input on two major bills that became public law.
Both pieces of legislation will enhance OIG’s ability to fulfill its statutory mission as the
provisions become effective. During this reporting period, we are actively involved in the
implementation of those provisions that affect OIG’s operations.
On March 2, 2004, the President signed P.L. 108-203, the
Social Security Protection Act of 2004. is bipartisan legislation
is the result of the efforts of numerous individuals, including
many SSA and OIG employees. Among its provisions are
much needed safeguards for OASDI and SSI beneficiaries with
representative payees and enhanced protection for individuals
acting in an official capacity to carry out a duty under the Act.
In addition to the new CMP authorities discussed above, the
legislation includes the following provisions:
  • Denial of OASDI benefits to persons fleeing prosecution,
    custody, or confinement, and to persons violating
    probation or parole;
  • Refusal to recognize certain individuals as claimant
    representatives;
  • Imposition of criminal penalties for those attempting to
    corruptly or forcibly interfere with the administration of the Act;
  • Disqualification from payment during trial work period upon conviction of fraudulent
    concealment of work activity; and
  • Authority for judicial orders of restitution.
On July 15, 2004, the Identity eft Penalty Enhancement Act, P.L. 108-275, was enacted. Most
significantly for OIG, this legislation amended the definition of “value” in 18 U.S.C. § 641
to allow for aggregation of benefit payments. Previously, some Federal courts did not allow an
individual’s benefit payments to be aggregated under 18 U.S.C. § 641, thereby preventing
many individuals from being charged with a felony for theft of Social Security benefits.



                                                                                                  47
     Semiannual Report to Congress                             October 1, 2004 — March 31, 2005




     Our ability to seek felony prosecutions for theft of benefits will help to ensure the integrity
     of SSA’s programs and operations. Additional provisions of this legislation include:
       • Consecutive penalty enhancements for individuals who knowingly transfer, possess, or
         use the means of identification of another person to commit a serious Federal predicate
         offense;
       • Addition of several predicate offenses, including 18 U.S.C. § 64, 42,U.S.C. §§ 408,
         1011, 1307(b), 1320a-7b(a), and §§ 1383a and 1632 of the Act;
       • Requirement that enhancement be imposed as consecutive sentence;
       • Expansion of 18 U.S.C. § 1028(a)(7) to apply to individuals who “possess” the means
         of identification of another person with intent to commit an unlawful act.
     OIG will continue to work with SSA and Congress to seek legislative remedies to assist in
     combating fraud, waste and abuse in SSA’s programs and operations.




48
 October 1, 2004 — March 31, 2005                        SSA Office of the Inspector General




OIG Management Activities
OEO is charged with performing all management support activities for OIG. OEO is
responsible for planning, formulating and executing OIG’s annual budget and implementing
and maintaining information technology systems for all OIG employees. In addition, OEO
performs human capital planning and management activities, serves as the steward of all OIG
assets and manages the physical facilities for OIG offices around the country.


Budget
Each year, we work with the Inspector General and each operating component to forecast
the level of fiscal resources required to perform our mission. We conduct an assessment of
historical data, along with an examination of current and planned workloads, to determine
how much money should be requested in our annual appropriation. As with most Federal
budgets, several factors can influence the level of requested funding, including legislation,
world events and economic trends.
For FY 2005, OIG’s annual appropriation is $90.4 million. is funding supports a staffing
level of 615 full-time equivalents. Employee salaries and benefits comprise 82 percent of
our budget, with the remaining 18 percent used for expenses including travel, training,
procurement and services. e majority of OIG’s non-personnel expenditures are mandatory,
covering rent, utilities and services, leaving only approximately five percent of the annual
appropriation for discretionary spending.


Human Capital Planning and Management
Current OIG staffing is at the maximum level authorized for FY 2005 (615 individuals). Last
year, we implemented a staffing strategy that carefully tracked employment gains and losses by
individual pay period for each OIG component. Using this data along with historical trend
information, we were able to begin FY 2005 at full staffing and have been able to sustain
full employment throughout this semiannual reporting period.
is ensures that OIG components have the necessary human
resources to fulfill their respective missions. Working with each
component, we forecast where future hiring will likely be required
and take steps to begin the recruitment process and have qualified
candidates in the pipeline to reduce the amount of time a position
remains vacant.
OIG is vigilant in its efforts to recruit and retain the best people.
Our human capital specialists and recruiters participate in job and career fairs around the
country. Some of these events target underrepresented groups in the labor force, allowing
us to continue our outreach efforts aimed at employing a diverse workforce. We continue



                                                                                                 49
     Semiannual Report to Congress                             October 1, 2004 — March 31, 2005




     making progress in minority recruitment, with our diversity statistics meeting or exceeding
     our goals in most categories.
     Once our employees are on board, we feel strongly that providing a quality work experience
     that includes excellent training and upward mobility is crucial for long-term retention. In
     addition to mandatory job-specific training, our Strategic Plan provides that employees
     receive at least 40 hours of annual training. Given budget limitations, our human capital
     management staff has explored many low or no-cost training opportunities to assist employees
     in meeting this requirement.


     Information Technology
     OIG provides and maintains most of its own Information Technology (IT) systems, although
     SSA does assist with voice, data and video network transport services. We realize the importance
     of state-of-the-art tools and place a high priority on ensuring that our employees have the
     latest proven technologies to perform their work. Our IT plan includes cyclical replacement
     schedules for select equipment including computers, servers, printers and laptop devices.
     During this semiannual reporting period, we installed a Storage Area Network to augment
     file storage capabilities for critical data and we began implementing a new desktop computing
     Windows operating system to provide greater functionality for our users.
     In addition to supporting an IT infrastructure for over 600 employees, our IT staff
     also provides software services in a number of areas. OIG has a comprehensive website,
     ../, which provides public information about our programs
     to deter and detect fraud, waste and abuse. Citizens may alert us of potential issues using
                                                  our online reporting form. For internal use,
                                                  we maintain an intranet site that includes
                                                  organizational information. We also created
                                                  and maintain an online Employee Resource
                                                  Center (ERC) that consolidates reference
                                                  materials frequently used by OIG staff.
                                                  e ERC includes contact information,
                                                  administrative policies and procedures,
                                                  forms, career development information and
                                                  a host of other employee-related resources.
                                                  Our IT software specialists also plan, design,
                                                  develop, test and implement OIG program-
                                                  related computer systems. ese software
                                                  applications support our investigators,
                                                  auditors and attorneys across the country.
     During this semiannual reporting period we continued implementing an audit automated
     working papers tool called TeamMate. is commercially available off-the-shelf software


50
October 1, 2004 — March 31, 2005                           SSA Office of the Inspector General




product was acquired in FY 2004 and is expected to be fully implemented by the end of
calendar year 2005.
In December 2004, we implemented a new case management system for OIG investigators
and attorneys. is new system, called the National Investigative Case Management System
(NICMS), provides enhanced case management functionality and improved query and
reporting capabilities and workflow based on business process management rules. NICMS
is implemented on a secure server platform with a standard browser interface for its users.
e system uses intuitive screens and menus that eliminate redundant data entry and provide
immediate notification to users when work requires their attention, thus avoiding potential
delays in work processes.
NICMS enables our law enforcement personnel and attorneys to be more productive as users
can more quickly access necessary data to plan work and make decisions.
  • Using NICMS, OIG staff can perform detailed searches of complaints, subjects and
    victims, cross-referencing cases with the same or similar attributes, which assists in trend
    analysis and overall investigative activities.
  • NICMS users can associate evidence files, including images and video clips, with cases,
    facilitating the move toward a paperless process. e system also has the ability to receive
    and transmit data to internal and external entities to facilitate joint investigative efforts
    at the Federal, State and local level.
  • NICMS provides a better portal for our fraud hotline operators to capture allegations
    and immediately share data with program specialists and investigative personnel to
    determine if a case is warranted.
  • NICMS facilitates better communication and data exchange among our investigators
    and attorneys as each group of users can access and share relevant data as cases are being
    developed. e new system will improve the time in which information about our CMP
    cases is exchanged, resulting in shorter processing times for these cases and additional
    recovery of fines.
With the implementation of NICMS, we expect to save over $1 million annually by
eliminating the expensive system maintenance and computer time-sharing costs required
for the previous case management system.




                                  A SPECIAL THANK YOU
  e diligent work, outstanding efforts, and many contributions of our entire OIG staff
  make the numerous accomplishments highlighted in this Semiannual Report possible.
      We would like to thank them for their dedicated spirit and many successes.



                                                                                                    51
     Semiannual Report to Congress                        October 1, 2004 — March 31, 2005




     Reporting Requirements
     is report meets the requirements of the Inspector General Act of 1978, as amended, and
     includes information mandated by Congress.



           Section                          Requirement                         Page(s)


      Section 4(a)(2)      Review of legislation and regulations                  N/A


      Section 5(a)(1)      Significant problems, abuses, and deficiencies        13–48

      Section 5(a)(2)      Recommendations with respect to significant
                                                                                 13–48
                           problems, abuses, and deficiencies
                           Recommendations described in previous
      Section 5(a)(3)                                                         Appendices
                           Semiannual Reports on which corrective
                                                                                E&F
                           actions are incomplete
                           Matters referred to prospective authorities
      Section 5(a)(4)
                           and the prosecutions and convictions that             31–43
                           have resulted
      Section 5(a)(5) &    Summary of instances where information was
                                                                                  N/A
      Section 6(b)(2)      refused


      Section 5(a)(6)      List of audits                                     Appendix B


      Section 5(a)(7)      Summary of particularly significant reports           13–30

                           Table showing the total number of audit
      Section 5(a)(8)      reports and total dollar value of questioned       Appendix A
                           costs
                           Table showing the total number of audit
      Section 5(a)(9)      reports and total dollar value of funds put to     Appendix A
                           better use
                           Audit recommendations more than 6 months
      Section 5(a)(10)     old for which no management decision has           Appendix A
                           been made
                           Significant management decisions that were
      Section 5(a)(11)                                                            N/A
                           revised during the reporting period

                           Significant management decisions with which
      Section 5(a)(12)                                                        Appendix G
                           the Inspector General disagrees




52
October 1, 2004 — March 31, 2005    SSA Office of the Inspector General




                              Appendices




                                                                Appendices •   53
Semiannual Report to Congress   October 1, 2004 — March 31, 2005
 October 1, 2004 — March 31, 2005                            SSA Office of the Inspector General




Appendix A

Resolving Audit Recommendations
e following chart summarizes SSA’s responses to our recommendations for the recovery or redirection
of questioned and unsupported costs. Questioned costs are those costs that are challenged because
of a violation of law, regulation, etc. Unsupported costs are those costs that are questioned because
they are not justified by adequate documentation. is information is provided in accordance with
P.L. 96-304 (the Supplemental Appropriations and Recession Act of 1980) and the Inspector General
Act of 1978, as amended.


                  Reports with Questioned Costs for the Reporting Period
                         October 1, 2004 through March 31, 2005

                                                   Number Value Questioned Value Unsupported
  A. For which no management decision
     had been made by commencement                      7        $1,476,492,737                 $2,660,550
     of the reporting period.

  B. Which were issued during the
                                                       13a           $83,210,732             $107,406,668
     reporting period.


  Subtotal (A + B)                                     20        $1,559,703,469              $110,067,218


  Less:
  C. For which a management decision
     was made during the reporting                     12b       $1,545,658,765              $107,331,218
     period.

    i. Dollar value of disallowed costs.                8        $1,526,087,949              $107,331,218


    ii. Dollar value of costs not
                                                        4            $19,570,816                           $0
    disallowed.

  D. For which no management decision
     had been made by the end of the                    9            $14,044,704                $2,736,000
     reporting period.

a. See Reports with Questioned Costs in Appendix B of this report.
b. A management decision was made on only a portion of the dollars contained in the report, Administrative Costs
   Claimed by the Georgia Disability Adjudication Services (A-15-01-11021, 2/6/04).




                                                                                             Appendices •          55
                Semiannual Report to Congress                                 October 1, 2004 — March 31, 2005




  e following chart summarizes SSA’s response to our recommendations that funds be put to better
  use through cost avoidances, budget savings, etc.


             Reports with Recommendations that Funds Be Put to Better Use for the
                   Reporting Period October 1, 2004 through March 31, 2005

                                                                       Number             Dollar Value

    A. For which no management decision had been made by the
       commencement of the reporting period.                             1                          $209,861

    B. Which were issued during the reporting period.                    7a                     $92,176,346

                        Subtotal (A + B)                                 8                      $92,386,207

       Less:


    C. For which a management decision was made during the reporting
       period.

        i.   Dollar value of recommendations that were agreed to by
             management.


             (a) Based on proposed management action.                    4                      $87,666,050

             (b) Based on proposed legislative action.                   0                                $0

       ii.   Dollar value of costs not agreed to by management.          0                                $0

                        Subtotal (i + ii)                                4                      $87,666,050

    D. For which no management decision had been made by the end of
       the reporting period.                                             4                       $4,720,157


  a. See Reports with Funds Put to Better Use in Appendix B of this report.




56 •   Appendices
October 1, 2004 — March 31, 2005                           SSA Office of the Inspector General




Appendix B

Reports Issued
                        Reports with Non-Monetary Findings
                       October 1, 2004 through March 31, 2005

      CIN                                       Report                                  Issue Date

                  The Social Security Administration’s Procedures for Addressing
  A-01-04-14091                                                                           10/7/04
                  Employee-Related Allegations in Region I

                  The Social Security Administration’s Compliance with the Employee
  A-14-04-24099                                                                          10/14/04
                  Retirement Income Security Act

                  Management of Allegations by the Social Security Administration’s
  A-13-04-14047                                                                          10/15/04
                  Office of Systems

  A-02-04-14072   Performance Indicator Audit: Processing Time                           10/25/04

                  Employers with the Most Suspended Wage Items in the 5-Year
  A-03-03-13048                                                                          10/26/04
                  Period 1997 through 2001

                  Inspector General Statement on the Social Security Administration’s
  A-02-05-15092                                                                          11/10/04
                  Major Management Challenges

                  Performance Indicator Audit: Disability Determination Services Net
  A-15-04-14074                                                                          11/10/04
                  Accuracy Rate--Allowances and Denials Combined

  A-15-04-34084   Oversight of the FY 2004 Financial Statement Audit                     11/10/04

                  Top Issues Facing Social Security Administration
  A-44-05-25111                                                                          11/10/04
                  Management— FY 2005

  A-15-04-14073   Performance Indicator Audit: Productivity                              11/17/04

                  Management Advisory Report: Proper Disposal of Sensitive
  A-15-04-24103   Documents at the Social Security Administration’s Headquarters         11/17/04
                  (Limited Distribution)
                  Disclosure Statement Review of Maximus, Inc. Home Office and
  A-15-04-34097                                                                          11/23/04
                  Health Operations Divisions

                  Management Advisory Report: Single Audit of the State of Colorado
  A-77-05-00004                                                                           12/7/04
                  for the FY Ended June 30, 2003

                  Individual Representative Payees for the Social Security
  A-01-05-15048                                                                           12/8/04
                  Administration in the Boston Region

                  Universities’ Use of Social Security Numbers as Student Identifiers
  A-08-05-15034                                                                           12/9/04
                  in Region IV

  A-02-03-13079   Social Security Administration’s Ticket to Work Program                12/20/04

                  Management Advisory Report: Single Audit of the State of Idaho for
  A-77-05-00005                                                                          12/28/04
                  the FY Ended June 30, 2003

  A-15-05-25096   Performance Indicator Audit: General Observations                       1/6/05

                  Management Advisory Report: Single Audit of the State of New York
  A-77-05-00006                                                                           1/19/05
                  for the FY Ended March 31, 2003




                                                                                        Appendices •   57
             Semiannual Report to Congress                                     October 1, 2004 — March 31, 2005




                                Reports with Non-Monetary Findings
                               October 1, 2004 through March 31, 2005

           CIN                                         Report                                     Issue Date


       A-01-05-15070   Access to Secured Areas in Region I Hearing Offices                         1/31/05

                       Universities’ Use of Social Security Numbers as Student Identifiers in
       A-07-05-15074                                                                               1/31/05
                       Region VII

                       Management Advisory Report: Single Audit of the State of Wisconsin
       A-77-05-00007                                                                                2/9/05
                       for the FY Ended June 30, 2003

                       Management Advisory Report: Single Audit of the State of Illinois for
       A-77-05-00008                                                                                2/9/05
                       the FY Ended June 30, 2003

                       Individual Representative Payees for the Social Security Administration
       A-06-05-15053                                                                               2/11/05
                       in the Dallas Region

                       Management Advisory Report: Single Audit of the State of Oklahoma
       A-77-05-00009                                                                               2/22/05
                       for the FY Ended June 30, 2003

       A-12-05-35003   Access to Secured Areas in Region III Hearing Offices                       2/25/05

                       Congressional Response Report: Follow-up of Federal Agencies’
       A-08-05-25101   Controls over the Access, Disclosure, and Use of Social Security            2/28/05
                       Numbers by External Entities

       A-06-05-15076   Access to Secured Areas in Region VI Hearing Offices                         3/8/05

                       Universities’ Use of Social Security Numbers as Student Identifiers in
       A-08-05-15033                                                                                3/8/05
                       Region X

                       Management Advisory Report: Single Audit of the State of Minnesota
       A-77-05-00010                                                                                3/8/05
                       for the FY Ended June 30, 2003

                       Universities’ Use of Social Security Numbers as Student Identifiers in
       A-04-05-15039                                                                               3/21/05
                       Region VIII

                       Individual Representative Payees for the Social Security Administration
       A-07-05-15055                                                                               3/21/05
                       in the Denver Region

       A-04-05-15066   Access to Secured Areas in Region IV Hearing Offices                        3/28/05


       A-03-04-14041   Department of Defense Wage Items in the Earnings Suspense File              3/29/05

                       The Social Security Administration’s Procedures for Addressing
       A-07-05-15014                                                                               3/29/05
                       Employee-Related Allegations in Region VII

                       The Social Security Administration’s Regional Office Procedures for
       A-09-04-14089                                                                               3/30/05
                       Addressing Employee-Related Allegations in Region X

       A-12-04-14098   The Effects of Staffing on Hearing Office Performance                       3/30/05




58 •   Appendices
October 1, 2004 — March 31, 2005                           SSA Office of the Inspector General




                          Reports with Questioned Costs
                      October 1, 2004 through March 31, 2005

    CIN         Issue Date                            Report                            Dollar Amount

                             Administrative Costs Claimed by the South Carolina
A-04-04-14053    10/7/04                                                                      $8,600
                             Disability Determination Services

                             Social Security Administration’s Controls Over the Title
A-06-03-13077    10/25/04                                                                $64,818,500
                             XVI Overpayment Waiver Process
                             Seattle Mental Health Institute - An Organizational
A-09-04-14015    10/26/04    Representative Payee for the Social Security                 $3,063,296
                             Administration
                             Management Advisory Report: Single Audit of the State
A-77-05-00001    11/16/04                                                                     $4,744
                             of Arizona for the FY Ended June 30, 2003

                             Management Advisory Report: Single Audit of the State
A-77-05-00002    11/17/04                                                                   $633,282
                             of Maine for the FY Ended June 30, 2003

                             Management Advisory Report: Single Audit of the State
A-77-05-00003    12/2/04                                                                    $237,151
                             of South Carolina for the FY Ended June 30, 2003

A-09-04-14013    1/31/05     School Attendance by Student Beneficiaries Over Age 18     $109,455,000

                             Westat Contract Close Out on Contract Number
A-15-05-20019    1/31/05                                                                     $35,135
                             0600- 99-36200 (Limited Distribution)

                             Administrative Costs Claimed by the South Dakota
A-15-03-13060    2/25/05                                                                    $233,963
                             Disability Determination Services

                             Individual Representative Payees for the Social Security
A-09-05-15057     3/8/05                                                                         $340
                             Administration in the Seattle Region

                             Individuals Receiving Multiple Auxiliary or Survivors
A-01-05-25015    3/28/05                                                                  $2,003,320
                             Benefits

                             Indirect Costs Claimed by the Arizona Disability
A-09-04-14010    3/28/05                                                                    $272,062
                             Determination Services
                             Representative Payee Reports Indicating Excess
A-13-03-13065    3/28/05     Conserved Funds for Supplemental Security Income             $9,852,007
                             Recipients

                                      TOTAL:                                            $190,617,400




                                                                                          Appendices •   59
              Semiannual Report to Congress                                October 1, 2004 — March 31, 2005




                             Reports with Funds Put to Better Use
                            October 1, 2004 through March 31, 2005

        CIN         Issue Date                             Report                            Dollar Amount

                                 Family Services, Inc., of Charleston, South Carolina,
   A-13-04-14002     10/1/04     A Fee-for-Service Representative Payee for the Social               $2,650
                                 Security Administration
                                 Administrative Costs Claimed by the South Carolina
   A-04-04-14053     10/7/04                                                                       $160,556
                                 Disability Determination Services
                                 The Social Security Administration’s Clean-Up of Title II
   A-04-03-13042     10/14/04    Disability Insurance Cases with a Workers’ Compensation        $87,500,000
                                 Offset
                                 Individual Representative Payees for the Social Security
   A-02-05-15049     1/31/05                                                                         $2,844
                                 Administration in the New York Region

   A-08-04-14093     3/15/05     Assessment of the Enumeration at Entry Process                  $3,285,960

                                 Individuals Receiving Multiple Auxiliary or Survivors
   A-01-05-25015     3/28/05                                                                       $614,336
                                 Benefits

                                 Indirect Costs Claimed by the Arizona Disability
   A-09-04-14010     3/28/05                                                                       $610,000
                                 Determination Services

                                           TOTAL:                                            $92,176,346




60 •   Appendices
 October 1, 2004 — March 31, 2005                          SSA Office of the Inspector General




Appendix C

Reporting Requirements Under the Omnibus Consolidated Appropriations
Act of 1997
To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208, we
are providing requisite data for the first half of FY 2005 from the Offices of Investigations and Audit
in this report.

OFFICE OF INVESTIGATIONS
We are reporting over $28 million in SSA funds as a result of our investigative activities in this reporting
period. ese funds are broken down in the table below.


                                       Investigative Activities

                                   1st Quarter               2nd Quarter                    Total

 Court Ordered
                                        5,221,579                  6,834,108                 12,055,687
 Restitution

 Recoveries                             6,534,591                  8,908,096                 15,442,687

 Fines                                    150,545                      63,586                       214,131

 Settlements/
                                          146,682                    411,023                        557,705
 Judgments

 TOTAL                               12,053,397                 16,216,813                 28,270,210



OFFICE OF AUDIT
SSA management has informed us that it has completed implementing recommendations from 5 audit reports
during this time period valued at over $268 million.
Puerto Rico Disability Determination Program (PR DDP) Indirect Cost Review
(A-06-04-34035, 9/16/04)
We recommended that SSA reduce direct costs charged to SSA for early retirement costs for PR DDP employees
who elected early retirement. ese costs totaled $407,057 for FYs 2000 through 2003.
We also recommended that SSA reduce direct costs charged to SSA for unused leave payments for PR DDP
employees who terminated their employment through retirement or other separation. is consisted of $323,080
identified during state FYs 2000 through 2003; $50,193 identified as of December 1, 2003; and any additional
amounts charged after December 1, 2003.




                                                                                          Appendices •         61
            Semiannual Report to Congress                                 October 1, 2004 — March 31, 2005




        Administrative Costs Claimed by the Michigan Disability Determination Services
        (MI-DDS) (A-05-03-13036, 5/7/04)
        We recommended that SSA instruct MI-DDS to claim future office space costs for the Detroit DDS
        based on reasonable and necessary square footage amounts that are approved by SSA. e implemented
        recommendation is valued at $2.7 million.
        Social Security Administration Controls over the Taxation and Suspension of Payments to
        Foreign Beneficiaries (A-14-03-23005, 3/3/04)
        We recommended that SSA identify cases and recover funds where errors were made in applying
        alien withholding tax provisions or paying benefits to non-citizens living abroad. e implemented
        recommendation is valued at $108.4 million.
        Controls Over Supplemental Security Income Replacement Checks
        (A-05-03-13010, 9/26/03)
        We recommended that SSA conduct training for both field office and teleservice center staff to address the
        issue of double-check negotiations (DCN). e training should focus on changes in processing requests
        for replacement checks and increasing the withholding amount to recover DCN overpayments from
        subsequent checks. e implemented recommendation is valued at $137.5 million.
        Screening Representative Payees for Fugitive Warrants (A-01-02-12032, 3/14/03)
        We recommended that SSA periodically validate its Representative Payee file against fugitive warrant
        data to identify existing Representative Payees who are fugitives and re-evaluate their suitability. e
        implemented recommendation is valued at over $19.5 million.




62 •   Appendices
 October 1, 2004 — March 31, 2005                             SSA Office of the Inspector General




Appendix D

Collections From Investigations and Audits
e Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report additional
information concerning actual cumulative collections and offsets achieved as a result of OIG activities
each semiannual period.


Office of Investigations
                  Total Restitution Reported by the Department of Justice
                     as Collected for the Social Security Administration

                        Total Number of                    Court Ordered
                                                                                    Total Restitution
  Fiscal Year     Individuals Assigned Court                 Restitution
                                                                                    Collected by DOJ
                     Ordered Restitution                   for This Period

     2002                                     600                  $18,068,423               $2,643,872

     2003                                     567                  $22,354,434               $2,184,770

     2004                                     700                  $24,309,652               $2,307,487

     2005                                     350                  $12,055,687                 $330,527a

    TOTAL                                  2,217                  $76,788,196               $7,466,656

a. Reflects collection for October 1, 2004 – December 31, 2004.




                         Funds Received by the Office of Investigations
                                  Based on Recovery Actions

                          Total Number of Recovery
  Fiscal Year                                                                Amount for Recovery
                               Actions Initiated

     2002                                                  2,202                            $29,434,025

     2003                                                  2,442                            $31,515,050

     2004                                                  1,861                            $32,706,653

     2005                                                    913                            $15,442,687

    TOTAL                                                 7,418                          $109,098,415



                                                                                          Appendices •     63
              Semiannual Report to Congress                                  October 1, 2004 — March 31, 2005




  OFFICE OF AUDIT
  e following chart summarizes the Agency’s responses to our recommendations for the recovery or
  redirection of questioned and unsupported costs. is information is prepared in coordination with
  the Agency’s management officials and is current as of March 31, 2005.


                    Responses to OIG’s Recommendations for the Recovery or
                        Redirection of Questioned and Unsupported Costs

             Reports
                          Questioned/                            Amount            Amount
   Fiscal      with                        Management
                          Unsupported                       Collected or to be   Written-Off/       Balance
   Year     Questioned                     Concurrence
                             Costs                              Recovered        Adjustments
              Costs


    2003       18           $56,602,321      $53,002,556         $21,575,579         $3,709,842      $31,395,567



    2004       19         $1,500,781,845   $1,473,367,243        $14,096,560     $1,389,999,564a     $96,724,005



   2005b       13          $190,617,400     $177,372,271         $67,917,271             $8,600     $122,691,529



   TOTAL       50        $1,748,001,566 $1,703,742,070        $103,589,410 $1,393,718,006          $250,811,101



  a. This amount includes $1,365,957,300 in adjustments that were contained in the report, Disabled Title II
     Beneficiaries with Earnings Reported on the Master Earnings File (MEF) (A-01-03-13019, 7/12/2004).
       We recommended that SSA review past cases where significant earnings are present on the MEF
       and no determination has been made regarding trial work and/or substantial gainful activity
       (SGA). SSA agreed, where it is cost beneficial to do so and as its resources permit, to review the
       cases with significant earnings on the MEF where no determination has been made regarding trial
       work/SGA and take action. However, SSA subsequently informed us that it would not review the cases.

  b. October 1, 2004 to March 31, 2005.




64 •    Appendices
October 1, 2004 — March 31, 2005                     SSA Office of the Inspector General




Appendix E

Significant Monetary Recommendations From Prior FYs for Which Corrective
Actions Have Not Been Completed

ere are no significant monetary recommendations from prior FYs for which corrective actions have
not been completed.




                                                                                 Appendices •       65
              Semiannual Report to Congress                                  October 1, 2004 — March 31, 2005




  Appendix F

  Significant Non-Monetary Recommendations From Prior FYs for Which
  Corrective Actions Have Not Been Completed
  Social Security Funds Held in Dormant Bank Accounts (A-02-03-23080, 2/18/04)
  Recommendation: We recommended that SSA change its policy regarding the presumption of death for purposes
  of reclaiming erroneously paid funds to eliminate the need for having benefits in suspension for 7 years where
  evidence to presume a person’s death exists, as defined by 20 C.F.R. 404.721.
  Agency Response: SSA agreed and will consider changing the policy to have a 2 year time frame to have benefits
  in suspension, as opposed to eliminating the provision altogether.
  Corrective Action: SSA has not yet revised the policy.
  SSA’s Management of Congressional Inquiries (A-13-02-12011, 9/23/02)
  Recommendation: We recommended that SSA develop and implement an Agency-wide information system that
  incorporates current technology to control, monitor, and track all congressional inquiries.
  Agency Response: SSA agreed with the recommendation.
  Corrective Action: e project is being implemented in a phased approach. Phase 1, Assignment and
  Correspondence Tracking Release 1.0, is the replacement of the current Commissioner’s Correspondence System.
  Vendor customization has been completed. e development process has entered the Integration Phase of the
  systems life cycle. is will be followed by the Training and Production Phase at which point a “Production
  Pilot” will begin and continue for 8 to 12 weeks.
  Additionally, classroom training for the Application Administrators began in September and continued through
  the end of calendar year 2004. Deployment will begin at the end of the production pilot in a phased rollout.
  End user training will be given 1 week prior to each of the component’s implementation date. e anticipated
  phase 1 completion date is September 2005.
  Work Activity for SSNs Assigned for Nonwork Purposes in the State of Utah
  (A-14-01-11048, 3/29/02)
  Recommendation: We recommended that SSA work with Immigration and Naturalization Service (INS), now
  incorporated into the Department of Homeland Security (DHS), to resolve data compatibility problems associated
  with the nonwork earnings file provided by SSA and involve employees familiar with the problem.
  Agency Response: SSA agreed with the recommendation.
  Corrective Action: Under the direction of the Enumeration Response Team, a subgroup is currently working on a
  proposal to expand the SSN electronic audit trail to capture information that could also be useful in resolving data
  compatibility problems between SSA and DHS. At this time, no milestone activities have been determined.
  In the interim SSA has implemented the “SS-5 Assistant” software program (developed by the New York Region).
  e SS-5 Assistant Release 2 is a Microsoft Access-based application that has been developed to support processing
  of SSN applications. Working in conjunction with the existing system, it assists users to correctly process
  applications, including electronically capturing evidence (such as document numbers, issue and expiration dates)
  and interfacing with DHS verification data.
  Recommendation: We recommended that SSA work to establish an agreement with the Office of Child Support
  Enforcement (OCSE) whereby SSA submits nonwork SSN records to OCSE each quarter, and OCSE associates
  quarterly earnings with the records before returning them to SSA.
  Agency Response: SSA believes this recommendation may have merit.

66 •   Appendices
 October 1, 2004 — March 31, 2005                               SSA Office of the Inspector General




Corrective Action: SSA no longer issues an SSN solely for the purpose of securing a driver’s license or motor
vehicle registration. is policy change closes opportunities for illegal work. In addition, SSA is continuing to work
with U.S. Citizenship and Immigration Service (USCIS), formerly INS, on a number of fronts to improve the
enumeration process. Once SSA has assessed the impact of these activities, SSA will revisit this recommendation
and determine how to best proceed within the constraints of SSA’s disclosure/privacy regulations and policies
on working with and sharing information with OCSE and USCIS for the purposes of identifying persons who
work illegally and employers who hire such persons.
Recommendation: We recommended that SSA use the quarterly wage information or other suitable methods
to prevent the issuance of replacement Social Security cards when there is evidence of illegal employment and
to advise employers of nonwork status when verifying employee SSNs.
Agency Response: SSA agreed that there should be tighter controls for issuing replacement cards to aliens who
are not authorized to work.
Corrective Action: SSA will investigate the best method for tightening controls, including the possibility of
issuing revised instructions and reminders on the policy on issuing replacement cards and on updating Numident
records. SSA will also explore appropriate mechanisms for helping DHS monitor employment authorization.
Recommendation: We recommended that SSA match the quarterly nonwork earnings file with the Earnings
Suspense File to identify and report to INS (now in DHS) employers who consistently hire people who are not
authorized for employment and individuals who use, for employment, nonwork SSNs and false identities.
Agency Response: SSA believed the recommendation may have merit.
Corrective Action: SSA will revisit the recommendation once an assessment of the impact of previously referenced
activities that are underway or planned is complete.
Payments Made to Selected Representative Payees after the Deaths of Social Security
Beneficiaries (A-13-01-21028, 9/18/01)
Recommendation: We recommended that SSA resolve beneficiary date-of-death discrepancies we identified and
develop and implement procedures for the timely and accurate recordation of dates of death.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA has already begun to correct the records containing date of death discrepancies and will
review the procedures to prevent future occurrences of this nature. In addition, a new Death Alert, Control
and Update System (DACUS) process, which will identify deceased representative payees in the Representative
Payee System, will be implemented in the DACUS Release II, which is not yet scheduled due to other systems
priorities.
Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027, 8/21/01)
Recommendation: We recommended that SSA collect each attorney’s SSN, name and address information so
Internal Revenue Service (IRS) Form 1099 can be issued to attorneys.
Agency Response: SSA’s Executive Task Force is addressing the issue of providing IRS Form 1099 to attorneys
and is developing a business process for issuing these forms.
Corrective Action: SSA must develop the automation support necessary to meet the Internal Revenue Code
requirement that SSA issue Form-1099s to attorneys who receive attorney fees of $600 or more in a taxable
year. e Attorney Fee Task Force has established a revised target of issuing Form-1099s to attorneys to January
2008 (representing attorney fees received during TY 2007). SSA has initiated planning and analysis required
for development of the systems enhancements to collect and process the appropriate attorney data required for
issuing the Form-1099s. e Office of Systems plans to develop an attorney database, with implementation
planned for late summer of 2006. is should allow for collection of the required attorney information beginning
in FY 2007.


                                                                                                 Appendices •           67
            Semiannual Report to Congress                        October 1, 2004 — March 31, 2005




  Appendix G

  Significant Management Decisions With Which the Inspector General Disagrees
  ere are no significant management decisions with which the Inspector General disagrees.




68 •   Appendices
October 1, 2004 — March 31, 2005                               SSA Office of the Inspector General




Glossary of Acronyms
      Abbreviation                                      Definition
Act                  Social Security Act
ALJ                  Administrative Law Judge
AMD                  Allegation Management Division
CDI                  Cooperative Disability Investigation
CID                  Critical Infrastructure Division
CMP                  Civil Monetary Penalty
DATAD                Data Analysis and Technology Audit Division
DCN                  Double Check Negotiation
DDS                  Disability Determination Service
DHS                  Department of Homeland Security
DI                   Disability Insurance
DoD                  Department of Defense
DOJ                  Department of Justice
DOL                  Department of Labor
EAE                  Enumeration at Entry
EDW                  Earnings Data Warehouse
EFAST                ERISA Filing Acceptance System
EN                   Employment Network
EOD                  Enforcement Operations Division
ERC                  Employee Resource Center
ERISA                Employee Retirement Income Security Act
ESF                  Earnings Suspense File
ESLO                 Employer Service Liaison Officer
FAD                  Financial Audit Division
FD                   Field Division
FSI                  Family Services, Inc.
FY                   Fiscal Year
GMAD                 General Management Audit Division
HO                   Hearing Office
INS                  Immigration and Naturalization Service
IO                   Immediate Office
IRS                  Internal Revenue Service
IT                   Information Technology
MAD                  Manpower and Administration Division
MOU                  Memorandum of Understanding
NICMS                National Investigative Case Management System




                                                                                                 Glossary • 69
            Semiannual Report to Congress                                       October 1, 2004 — March 31, 2005




                      Abbreviation                                       Definition
                OA                   Office of Audit
                OASDI                Old-Age, Survivor, and Disability Insurance
                OCCIG                Office of the Chief Counsel to the Inspector General
                OEO                  Office of Executive Operations
                OHA                  Office of Hearings and Appeals
                OI                   Office of Investigations
                OIG                  Office of the Inspector General
                OMB                  Office of Management and Budget
                OQA                  Office of Quality Assurance and Performance Assessment
                OQAPR                Office of Quality Assurance and Professional Responsibility
                P.L.                 Public Law
                PAR                  Performance and Accountability Report
                PBGC                 Pension Benefit Guaranty Corporation
                PCIE                 President’s Council on Integrity and Efficiency
                PPTSD                Policy, Planning, and Technical Services Division
                PwC                  Pricewaterhouse Coopers LLP
                RO                   Regional Office
                SED                  Strategic Enforcement Division
                SMHI                 Seattle Mental Health Institute
                SSA                  Social Security Administration
                SSI                  Supplemental Security Income
                SSN                  Social Security number
                SSNIPT               Social Security Number Integrity Protection Team
                State                Department of State
                TTW                  Ticket to Work
                TY                   Tax Year
                VR                   Vocational Rehabilitation
                WBDOC                Wilkes-Barre Data Operations Center
                WC                   Workers Compensation
                WTC                  World Trade Center




70 • Glossary
10th Anniversary
SOCIAL SECURITY ADMINISTRATION
OFFICE OF THE INSPECTOR GENERAL


            Mission Statement                                      How to Report Fraud
  By conducting independent and objective
                                                  e SSA OIG Fraud Hotline offers a means for you to provide
  audits, evaluations, and investigations, we
                                                  information on suspected fraud, waste, and abuse. If you know of
  improve the SSA programs and operations
                                                  current or potentially illegal or improper activities involving SSA
  and protect them against fraud, waste,
                                                  programs or personnel, we encourage you to contact the SSA OIG
  and abuse. We provide timely, useful,
                                                  Fraud Hotline.
  and reliable information and advice to
  Administration officials, Congress, and the
  public.                                         Call                   1-800-269-0271

                                                  Write                  Social Security Administration
             Vision and Values                                           Office of the Inspector General
  We are agents of positive change striving for                          Attention: SSA Fraud Hotline
  continuous improvement in SSA’s programs,                              P. O. Box 17768
  operations, and management by proactively                              Baltimore, MD 21235
  seeking new ways to prevent and deter           Fax                    410-597-0118
  fraud, waste, and abuse. We are committed
  to integrity and to achieving excellence by     Internet             www.SocialSecurity.gov/oig
  supporting an environment that encourages
  employee development and retention, and
  fosters diversity and innovation, while               To obtain additional copies of this report, visit our website,
  providing a valuable public service.                      www.SocialSecurity.gov/oig or call 410-965-3218

                                                                           SSA Pub. No. 85-007
                                                                           Published May 2005
                                         10th Anniversary
                                         SOCIAL SECURITY ADMINISTRATION
                                         OFFICE OF THE INSPECTOR GENERAL


                                              ild in g O n Our
                                           Bu                  Pas
                                                                 t
www.SocialSecurity.gov/OIG
 SSA OIG Pub. No. 85-007                  Anticipating Our Future
  PUBLISHED MAY 2005
                             SEMIANNUAL REPORT TO CONGRESS  October 1, 2004 – March 31, 2005
